<html>
<title> - Fiscal Year 2006 Budget</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                        FISCAL YEAR 2006 BUDGET

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2005

                               __________

                            Serial No. 109-3

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
20-904                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005

?

                     Committee on Homeland Security

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi Ex 
Christopher Cox, California Ex       Officio
Officio

                                   II


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection and Cybersecurity
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     6
The Honorable Tom Davis, a Representative in Congress From the 
  State of Virginia
  Prepared Statement.............................................     7
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    28
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    31
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    34
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of Texas........................................    25
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    27
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................     4

                               WITNESSES

Ms. Carol DiBattiste, Deputy Administrator, Transportation 
  Security Administration, U.S. Department of Homeland Security
  Oral Statement.................................................    14
  Prepared Statement.............................................    10
Ms. Deborah J. Spero, Deputy Commissioner, Bureau of U.S. Customs 
  and Border Protection, U.S. Department of Homeland Security
  Oral Statement.................................................    16
  Prepared Statement.............................................    10
Mr. Jim Williams, Director, US-VISIT Program, Border and 
  Transportation Security Directorate, U.S. Department of 
  Homeland Security
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                APPENDIX
                   Material Submitted for the Record

Questions for the Witnesses from the Honorable Dan Lungren.......    58
Questions for the Witnesses from the Honorable Eward J. Markey...    61
Prepared Statement from Marc Rotenberg, EPIC Executive Director 
  and Melissa Ngo, EPIC Staff Counsel............................    39
Questions for the Witnesses from the Honorable Bennie G. Thompson    58

 
                     INTEGRATING HOMELAND SECURITY
                          SCREENING OPERATIONS

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                          House of Representatives,
                 Subcommittee on Economic Security,
      Infrastructure Protection, and Cybersecurity,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2318, Rayburn House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Davis, Rogers, Pearce, 
Cox, Sanchez, Dicks, DeFazio, Lofgren, Pascrell, and Thompson.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security's Subcommittee on Economic Security Infrastructure 
Protection and Cybersecurity will come to order.
    The Subcommittee is meeting today to hear testimony on the 
DHS proposed fiscal year 2006 budget relating to the 
integration of homeland security screening operations.
    As we begin the first ever hearing of this Subcommittee, I 
would like to start by thanking Chairman Cox and Ranking Member 
Thompson for their leadership in helping to establish this 
committee as a permanent standing committee.
    I would like to also thank Chairman Cox for giving me the 
honor of chairing this critically important Subcommittee.
    I look forward to working with Chairman Cox and Ranking 
Members Thompson and Sanchez and all members of the Committee 
on both sides of the aisle in the coming years.
    I am also excited personally to be back serving in the 
Congress. I came back because of my genuine desire to help this 
country tackle its greatest challenge since the fall of 
communism: The specter of international terrorism, particularly 
terrorists armed with weapons of mass destruction. It is my 
sincere hope we can work together to accomplish this important 
work, the important work of this Subcommittee, in a non-
partisan manner driven by rational risk assessments and always 
putting the good of the Nation above partisan politics.
    This Subcommittee has a vital role to ensure that our 
homeland security policies strengthen our nation and protect 
our economic as well as physical security. As we know, our 
terrorist enemies seek not only to kill Americans but also to 
weaken our economy and destroy our way of life.
    In the broader sense, this Subcommittee will lead the 
Committee's efforts in answering several fundamental homeland 
security questions: Which critical assets and infrastructure 
require protection, and how do we prioritize our investments in 
a world of finite resources? What are the appropriate homeland 
security roles and responsibilities of Federal, State and local 
governments?
    And as a former Attorney General of California, I am very, 
very concerned about that and also the responsibilities of the 
private sector. How do we ensure that our investments in 
securing the homeland do not subtract from but actually 
contribute to promoting our national economic security? 
Answering these questions correctly will ensure that our 
collective work makes a real difference for our nation, for the 
citizens we serve and for the critical new department that we 
oversee.
    With that background, we now turn to the focus of our 
hearing today. Since the tragic events of September 11, 2001, 
the Congress and the Administration have created numerous new 
programs or enhanced old ones aimed at screening individuals 
and cargo entering the United States or accessing critical 
parts of our infrastructure. However, these actions were taken 
in a piecemeal fashion serendipitously, usually in reaction to 
some event rather than as part of a strategic effort to build a 
comprehensive, integrated screening system.
    The 9/11 Commission in its final report last summer faulted 
this patchwork system of screening as leaving the Nation 
vulnerable to terrorist attacks, and that Commission called for 
a new system that fully integrates our border, transportation 
and critical infrastructure screening activities. The proposed 
Office of Screening Coordination and Operation, or SCO, as we 
will come to know it, appears to be a step forward in the right 
direction towards meeting the 9/11 Commission recommendations.
    This new office seeks to consolidate and coordinate the US-
VISIT Border Security Program, certain registered or trusted 
traveler programs, the FAST NEXUS and SENTRI cargo security and 
expedited border crossing programs, background checks and 
credentialing for persons working in high security areas of our 
transportation system and for those seeking to transport 
hazardous materials within the U.S. and background checks for 
foreign nationals seeking flight training in the U.S.
    The President's budget seeks approximately $847 million for 
this operation in fiscal years 2006 and based on some data we 
got that is a significant increase over those expenditures for 
those programs in the current year.
    We as a nation need to establish our homeland security 
priorities, and that does not simply mean increasing the 
budget. The Homeland Security Committee is charged with the 
most important mission of our government today, I believe, 
protecting our citizens from the threat of global terrorism. I 
assert that we must continue to adapt to the changing tactics 
of our enemy and directly fight the transnational Islamic 
fascism of those who elect terrorism as their weapon of choice.
    This Committee and the Congress must seek to spend the 
taxpayer money wisely and efficiently to demonstrate the most 
effective way to protect as many Americans as possible. We must 
create a homeland security strategy based on rational risk 
assessment rather than pork barrel politics. And when taxpayer 
money is allocated for the defense of our homeland, we must ask 
one simple question: Is spending on this specific program the 
most productive means to safeguard our citizens?
    I believe this new office has the potential to enhance our 
homeland security by improving the efficiency and effectiveness 
of our terrorist-related screenings. It also has the potential 
to expedite cross-border movement of low-risk persons and goods 
and reduce bureaucracy and administrative burdens on the 
traveling public and enhancing our economic growth.
    However, many of the details behind this proposal remain 
somewhat understandably unclear at this time. For instance, why 
were some DHS screening programs proposed for consolidation 
while others were not? What will happen to the programs that 
will be placed within the new office? Will they be merged into 
one single program or continue to exist as distinct programs 
with their own unique database queries, requirements and 
privacy controls?
    And as we attempt to do this, we should always remember 
that privacy controls are something that is necessary in this 
engagement as well.
    What efficiencies and cost savings can we expect to see 
from this consolidation, if any? And if you can't suggest some, 
why not? And more importantly, how do we use this 
reorganization to make America more secure? I hope the 
witness's testimony today will allow us to begin, and I stress 
begin, to address some of these questions.
    I would like to welcome and thank Deputy Administrator 
DiBattiste from TSA, Deputy Commissioner Spero from CBP, and 
Director Williams of the US-VISIT Program Office for appearing 
before the subcommittee today, and I certainly look forward to 
your testimony.
    And it is now my pleasure to recognize the Ranking Member, 
Ms. Sanchez, from my home state of California for an opening 
statement.

  Prepared Opening Statement from the Honorable Daniel E. Lungren, a 
Representative in Congress From the State of California, and Chairman, 
   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

    As we begin the first-ever hearing of this Subcommittee, I would 
like to start by thanking Chairman Cox and Ranking Member Thompson for 
their leadership in helping to establish this Committee as a permanent 
standing committee. And I want to thank Chairman Cox for giving me the 
honor of chairing this critically important Subcommittee. I look 
forward to working with Chairman Cox, Ranking Members Thompson and 
Sanchez, and all the Members of the Committee, on both sides of the 
aisle, in the coming years.
    I also am excited to be back serving in the Congress. I came back 
because of my genuine desire to help this country tackle its greatest 
challenge since the fall of Communism--the specter of international 
terrorism, particularly terrorists armed with weapons of mass 
destruction. It is my sincere hope that we can work together to 
accomplish the important work of this Subcommittee in a non-partisan 
manner, driven by rational risk assessments and always putting the good 
of the Nation above partisan politics.
    This Subcommittee has a vital role to ensure that our homeland 
security policies strengthen our Nation and protect our economic as 
well as our physical security. As we know, our terrorist enemies seek 
not only to kill Americans, but also to weaken our economy and destroy 
our way of life.
    In the broadest sense, this Subcommittee will lead the Committee's 
effort in answering several fundamental homeland security questions. 
Which critical assets and infrastructure require protection and how do 
we prioritize our investments in a world of finite resources? What are 
the appropriate homeland security roles and responsibilities of 
Federal, state, and local governments, and of the private sector? And 
how do we ensure that our investments in securing the homeland do not 
subtract from, but actually contribute to promoting, our national 
economic security. Answering these questions correctly will ensure that 
our collective work makes a real difference for our Nation, for the 
citizens we serve, and for the critical new Department that we oversee.
    With that background, we now turn to the focus of our hearing 
today. Since the tragic events of September 11, 2001, the Congress and 
the Administration have created numerous new programs, or enhanced old 
ones, aimed at screening individuals and cargo entering the United 
States or accessing critical parts of our infrastructure. However, 
these actions were taken in a piecemeal fashion, usually in reaction to 
some event rather than as part of a strategic effort to build a 
comprehensive, integrated screening system. The 9/11 Commission, in its 
final report last summer, faulted this patchwork system of screening as 
leaving the Nation vulnerable to terrorist attack, and called for a new 
system that fully integrates our border, transportation, and critical 
infrastructure screening activities.
    The proposed Office of Screening Coordination and Operations, or 
SCO, as we will come to know it, appears to be a step forward in the 
right direction towards meeting the 9/11 Commission recommendation. 
This new office seeks to consolidate and coordinate the US-VISIT border 
security program, certain registered or ``trusted'' traveler programs, 
the FAST, NEXUS and SENTRI cargo security and expedited border crossing 
programs, background checks and credentialing for persons working in 
high security areas of our transportation systems and for those seeking 
to transport hazardous materials within the United States, and 
background checks for foreign nationals seeking flight training in the 
United States. The President's budget seeks approximately $847 million 
dollars for the SCO in Fiscal Year 2006.
    We as a nation need to establish our homeland security priorities, 
and that does not mean simply increasing the budget. The Homeland 
Security Committee is charged with the most important mission of our 
government today, protecting our citizens from the threat of global 
terrorism. I assert that we must continue to adapt to the changing 
tactics of our enemies and directly fight the transnational Islamic 
fascism of those who elect terrorism as their weapon of choice.
    This committee and the Congress must seek to spend the taxpayer 
money wisely and efficiently to determine the most cost effective way 
to protect as many Americans as possible. We must create a homeland 
security strategy based on rational risk assessment rather than pork 
barrel politics. When taxpayer money is allocated for the defense of 
our homeland, we must ask one simple question, ``Is spending money on 
this program the most productive means to safeguard our citizens?''
    I believe that this new office has the potential to enhance our 
homeland security by improving the efficiency and effectiveness of our 
terrorist-related screening. It also has the potential to expedite 
cross-border movement of low-risk persons and goods, reducing 
bureaucracy and administrative burdens on the traveling public and 
enhancing our economic growth. However, many of the details behind this 
proposal remain, somewhat understandably, unclear at this time. For 
instance, why were some DHS screening programs proposed for 
consolidation, while others were not? What will happen to the programs 
that will be placed within the new office? Will they be merged into one 
single program or will they continue to exist as distinct programs, 
with their own unique database queries, requirements and privacy 
controls? What kinds of efficiencies and cost savings can we expect to 
see from this consolidation? And most importantly, how will this re-
organization make America more secure?
    I hope the witnesses' testimony today will allow us to begin to 
address some of these questions. I would like to welcome and thank 
Deputy Administrator DiBattiste from TSA, Deputy Commissioner Spero 
from CBP, and Director Williams of the US-VISIT program office for 
appearing before the Subcommittee today. I look forward to hearing your 
testimony.
    I now recognize the Ranking Member, Ms. Sanchez, from my home State 
of California, for an opening statement.

    Ms. Sanchez. Thank you, Mr. Chairman, and I would like to 
congratulate you on your chairmanship. And I know that we have 
many of the same goals, and I look forward to working with you 
in this Congress.
    I would also like to welcome all of my colleagues on this 
side and on the other side to the Subcommittee, because this 
Subcommittee has significant jurisdiction. We have a lot of 
ground to cover, and it is going to take all of us working 
together to get all of this done. Nothing short of the security 
of the American people is at stake.
    And, finally, I would like to welcome the witnesses that we 
have before us today. I am looking forward to hearing from you. 
And I don't really want to harp very much on this, but our 
Committee rules call for our witnesses to give us their written 
testimony no less than 48 hours before a hearing. And I say 
that because we didn't receive your testimony until last night 
at 6 p.m. And in the last couple of years that we have had this 
Committee, what we have seen out of this department is that we 
don't get the testimony in time.
    And it is important for us because that way we don't waste 
our time on questions that are already answered in your 
testimony. And if we can really get to some real meat on some 
of these questions. So if maybe you can go back with that in 
mind and let your colleagues back there know also that this is 
a very important issue to us. I like to read it way ahead of 
time so I can think about what you are trying to tell me.
    The hearing today is a budget hearing. What we are trying 
to do is to carry out our oversight responsibilities, and the 
beginning of each year when the President's budget comes 
forward we all look at the different departments and we ask the 
questions that we think we need to do, because we want to know 
whether you have enough resources to get all of those 
priorities and tasks that you are assigned to do or that you 
think you must do in order to perform your job. And ideally, we 
start at the macro level and then delve down into the finer 
details at a later hearing.
    But the problem with that is that the Border and 
Transportation Security Directorate within DHS finds itself 
without a director. And I think that fact itself is a little 
troubling to some of us, and I would just state for the record 
that an organization with a mission as important as DHS cannot 
afford to go too long with key positions such as this one 
unfilled. And I hope that the new director will endeavor to 
correct this problem quickly so we can all get to work.
    Instead of talking today about the macro look, we are 
really looking more focused looking at the consolidation of 
several of the screening programs within DHS under the one 
roof, Office of Screening Coordination and Operation. And this 
proposed consolidation is part of the President's budget, and 
so we want to find out today what this means, what is the 
scheme, what are you guys thinking about? Because it is new and 
none of us have seen it really before or spoken towards them.
    The screening programs are very important. Many of them 
work well, and they can, I think, be a very powerful took to 
help our TSA and our CBP officers do their job catching the bad 
guys and protecting the public. If they don't work well, then 
we burden with our officers with repeatedly doing unnecessary 
screening of innocent people, wasting both our own resources, 
those officers' time, and of course the travelers' time, the 
legitimate travelers' time.
    We also run the problem of if the innocent traveler's time 
is used, then our tourists and our business people will not 
want to travel and do the business of America, which is 
business. So I am very interested in particular in the 
database, in the coordination, if you are going to keep 
separate databases, if you are going to put them together, and 
more importantly one of the real issues of why are innocent 
people always repeatedly coming up and why haven't we figured 
out a way in which to help these people in a very fast way get 
them off of these lists so that they can continue to travel. 
And one of the indications is, for example, our own colleague, 
Senator Ted Kennedy, who continued to be stopped because his 
name was the same as somebody else on the list. And I think 
that is a very legitimate problem, and we need to take a look 
at it, and I would like some answers to that.
    So I am looking forward to your testimony. I know you have 
a hard job. We all realize that. But now we have got a couple 
years of experience and we need to take these lessons learned 
and we need to get this better, these practices better. So I 
look forward to discussing this today. Thank you.
    Mr. Lungren. Thank you, Congresswoman Sanchez.
    And I would just say for the record that in the future we 
will expect to have testimony 48 hours ahead of time. I am not 
sure I will invoke the actions of the chairman of the Judiciary 
Committee who refuses to allow people to talk if they don't 
give it within 48 hours. And I know you have to work with OMB 
but maybe you can tell OMB that for our work we need to have 
this in plenty of time.
    It is now my pleasure and honor to recognize the Chairman 
of the full Committee, the gentleman from California, Mr. Cox, 
for any statement he may have.
    Mr. Cox. Thank you, Chairman Lungren, and I want to begin 
by commending you on your chairmanship and Ranking Member 
Sanchez for the leadership that I know that you will provide to 
this committee, which, as has been stated, has substantial and 
important jurisdiction over the nation's homeland security. I 
want to thank you for holding this hearing today and thank our 
witnesses for being here to discuss these important issues with 
us.
    In his fiscal year 2006 budget request, President Bush 
proposes to create a new office within DHS to integrate the 
multiple terrorist-related screening activities currently 
conducted by the Department of Homeland Security. This was a 9/
11 Commission recommendation and even before that a 
recommendation of the Select Committee on Homeland Security in 
the 108th Congress. The effective management of these programs 
is critical to our nation's security. Coordinating them will 
help us identify, track and interdict terrorists and dangerous 
cargo that pose a threat to our homeland security.
    What is proposed is a new Screening Coordination and 
Operations Office, as my colleagues have outlined. It would 
consolidate nine different screening programs from TSA and CBP 
into a single office, although I note not necessarily into a 
single screening program. The goal is to enhance terrorist-
related screening and facilitate efficiency in trade and travel 
through risk-based assessments, while safeguarding individual 
privacy and civil liberties. This would be good news, and I 
look forward to hearing in more detail how this will happen.
    I support this effort to improve integration and 
coordination of these screening systems which, as Chairman of 
the Select Committee on Homeland Security in the last Congress, 
I strongly encouraged the Department to undertake. In 
implementing this effort, it will be important for the 
Department to define the interrelationships and commonalities 
among these programs and to explicitly define the limitations 
and unique requirements of these separate programs.
    Along these lines, I hope to hear from our witnesses today 
the process by which it was determined which programs were to 
be included in the SCO and which ones were to be excluded. For 
example, TSA's Secure Flight Program, which once operational 
will be the principal mode of screening domestic air travelers 
against terrorist watch lists, is recommended for inclusion 
within the SCO. But CBP's Advanced Passenger Information 
System, which is used for the screening of international 
passengers flying into the United States, is not proposed for 
inclusion within the SCO at this time. This is an issue that 
needs to be explored, among many others in this hearing.
    Each day, our nation's transportation system moves over 30 
million tons of freight and supports approximately 1.1 billion 
passenger trips. The Department of Homeland Security is now 
primarily responsible for managing the security risks to this 
system and the risks from this system. Quick, safe and secure 
access to this system by passengers and cargo must always 
remain a top priority, for our livelihood and our way of life 
depend on our ability to travel and engage in interstate 
commerce.
    Our challenges are many and our resources are not 
limitless. We need to assess and prioritize the risks we face 
and apply our energies and resources accordingly. That is the 
daunting task assigned to this subcommittee. The President has 
asked for nearly $847 million for the new SCO office. We need 
to ensure we are spending our resources wisely, where they are 
most needed and, therefore, I look forward to hearing from our 
witnesses on how the SCO will move us in this direction.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Lungren. Thank you, Chairman Cox. Other members of the 
Subcommittee are reminded that opening statements may be 
submitted for the record.

   Prepared Statement for the Record from the Honorable Tom Davis, a 
         Representative in Congress From the State of Virginia

    I would like to thank Chairman Lungren and Ranking Member Sanchez 
for holding this important hearing on integrating the Department of 
Homeland Security's (DHS) screening operations and programs. I am 
pleased to be serving on the Subcommittee for Economic Security, 
Infrastructure Protection, and Cyber Security and look forward to 
participating, as this Subcommittee has jurisdiction over issues that 
are of personal importance to me and to the oversight work of the 
Committee on Government Reform, which I chair.
    As Chairman, I have oversight of the federal government, including 
its information systems, and my staff has conducted extensive oversight 
on most of the programs that will become part of the Office of 
Screening Coordination and Operations (SCO). I applaud efforts to 
consolidate duplicate activities within the federal government and, in 
turn, reduce government waste.
    I am pleased that Jim Williams, the Director of the US-VISIT 
program, will be testifying today. US-VISIT has shown significant 
progress. Our oversight of the program has shown that DHS has an 
excellent US-VISIT team and is moving at an appropriate pace to meet 
technical and organizational challenges. Currently, the wait times are 
down and demonstrations are being conducted on the exit end. It would 
be hugely disappointing to have this forward movement be interrupted. I 
am anxious to hear Mr. Williams' take on how consolidating US-VISIT 
into SCO will affect the overall strategic plan of the program.
    FAST, NEXUS and SENTRI are very successful programs on our Northern 
and Southern borders. Not only are these programs well run by Customs 
and Border Protection (CBP), cargo carriers and personal travelers have 
shown great enthusiasm to join and participate within the boundaries of 
United States law. As with my concerns regarding the functioning of US-
VISIT, I hope Deputy Commissioner Spero will assure the Members of the 
Subcommittee that the operational aspects, particularly the numbers of 
processed applicants, of FAST, NEXUS and SENTRI will not suffer during 
the transition to SCO.
    My Committee monitored the Transportation Security Administration's 
(TSA) work on the Computer Assisted Passenger Pre-screening System II 
(CAPPS II). My former Subcommittee on Technology, Information Policy, 
Intergovernmental Relations, and the Census was a requester of the 
Government Accountability Office's (GAO) report on CAPPS II and GAO's 
follow up report on Security Flight. I have concerns about moving 
Secure Flight to SCO, as there are outstanding issues to be resolved 
regarding the program. TSA will not know the results of its commercial 
data concept testing until April 2005. Even after receiving these 
commercial data test results, TSA will need to access these results and 
work on how to integrate commercial data into the Secure Flight 
program. I look forward to Deputy Administrator Dibatiste addressing 
these issues regarding Secure Flight and how DHS and TSA will assure 
Members that the mission and operability of the program will not be 
hampered due to the move to SCO.
    I believe this will be a productive hearing and look forward to the 
witness testimony.

    We are now pleased to have an expert panel of witnesses 
before us on this important topic. Let me just remind all three 
of you that each of your entire written statements will be 
entered into the record. We would ask you strive to limit your 
oral testimony to the 5-minute time period allotted. And that 
is particularly true because we are scheduled to have a vote, I 
believe, at 2:45 p.m. I would like to get all of your testimony 
in first before we are interrupted and hopefully can begin 
questions.
    The Chair now recognizes Mr. Jim Williams, Director of US-
VISIT Program, Border and Transportation Security Directorate, 
U.S. Department of Homeland Security, to testify.

 STATEMENT OF JIM WILLIAMS, DIRECTOR, US-VISIT PROGRAM, BORDER 
  AND TRANSPORTATION DIRECTORATE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Williams. Thank you, Chairman Lungren.
    Good afternoon, Chairman Cox, Chairman Lungren, Ranking 
Member Sanchez and distinguished members. It is a pleasure to 
be here before you today.
    I would like to congratulate you on your appointment, the 
creation of this new subcommittee and the permanent creation of 
the Homeland Security Committee. I look forward to working with 
you to enhance our national and economic security with the 
transformation of our borders and the modernization of our 
immigration and transportation security systems.
    We are here before you today to discuss the 
administration's proposal to create the Screening Coordination 
and Operations Office; a bold initiative that will enhance DHS' 
capabilities to secure the homeland by integrating multiple 
programs that support multiple Federal departments' and 
agencies' screening needs. We are creating a more cohesive, 
streamlined approach that will enhance the security of our 
citizens and visitors, protect personal privacy and provide 
better customer service for lower risk travelers.
    As the Director of the US-VISIT Program, I can say 
firsthand that an integrated program provides tangible 
benefits. As we have implemented the beginning phases of US-
VISIT, we have seen that collaboration works, that technology 
and better information management makes us more effective and 
that we can enhance national security without compromising 
economic security.
    US-VISIT is a major component of border reform and 
modernization. It is bringing integrity back to our immigration 
system and demonstrating the value of incorporating biometrics 
into the international travel process.
    To date, US-VISIT has processed over 20 million visitors. 
As a direct result of the use of biometrics, thousands of 
individuals have been denied visas by Department of State 
consular offices, and more than 450 criminals and immigration 
violators have been denied admission to the United States by 
Customs and Border Protection officers.
    Also, through the delivery of timely and accurate 
information to the Immigration and Customs Enforcement 
officers, visas overstayers have been identified and removed 
from the United States. US-VISIT and U.S. Citizenship and 
Immigration Services are also working together to link 
biometric screening systems which will aid their adjudicators 
in making more informed decisions.
    The use of biometrics and biographic data together provides 
Department of State consular officers, Customs and Border 
Protection officers and other law enforcement officials the 
information they need to verify identity, authenticate travel 
documents and identify criminals, immigration violators and 
others who pose a threat to our nation's security. For 
legitimate visitors to our country, this same access to data 
means that they can be processed more quickly and more 
efficiently while protecting their privacy.
    These same benefits can be realized across our screening 
and credentialing programs by establishing the Office of 
Screening Coordination and Operations (SCO). DHS' vision of an 
integrated program is echoed and clarified by the 9/11 
Commission and the President's Homeland Security Presidential 
Directive 11. Both recognize the need for a coordinated 
approach to managing our nation's security screening system.
    Secretary Chertoff has been briefed on the SCO and has 
endorsed its concept. However, he is currently undertaking a 
major policy and operational review of initiatives facing the 
Department. Following this review, and subject to congressional 
approval of the President's budget, he will determine how the 
SCO and other departmental initiatives will move forward. He 
looks forward to sharing his thoughts on this once this review 
is complete. Until then I am prepared to share some high-level 
thinking about the need for the SCO.
    Initially, DHS proposes to integrate the management and 
coordination of many of the Department's voluntary and 
compulsory people screening programs. This integration will 
move us closer to achieving our overall vision of secure, 
transparent and convenient travel, both within and across our 
borders. We want to build a future state whereby decision 
makers have complete access to the information they need, when 
and where they need it to make the best and most informed 
decision in time, every time.
    The President has proposed to establish the SCO within the 
Directorate of Border and Transportation Security. In fiscal 
year 2005, DHS will develop a migration plan following the 
Secretary's review to ensure a seamless path for standup of the 
SCO.
    In closing, I would like to share with you our vision. 
Simply put, we are creating a screening system that responds to 
the security and economic needs of a dynamic 21st century 
world. That means securing our borders from threats wherever 
they come from and expediting the millions of people and 
trillions of dollars in trade and tourism that keep our country 
strong.
    Thank you again for inviting me to address this committee, 
and I look forward to working with you to make this new office 
successful in achieving its goals. I look forward to your 
questions.
    [The statement of witnesses follows:]

    Prepared Statement from Jim Williams, Director, US-VISIT, Carol 
       DiBattiste, Deputy Administrator, Transportation Security 
 Administration, and Deborah Spero, Deputy Commissioner, U.S. Customs 
                         and Border Protection

    Introduction
    Chairman Lungren, Ranking Member Sanchez, and distinguished Members 
of the Subcommittee. Thank you for this opportunity to share with you 
information about how the Department of Homeland Security (DHS) will 
enhance immigration and border management, transportation security, 
critical infrastructure protection and the delivery of other benefits 
through the establishment of an Office of Screening Coordination and 
Operations (SCO).
    As you all well know, the Department was created to integrate 
security activities across the Federal government more effectively, 
thereby enhancing security for the American people in a manner that 
preserves our freedoms. Consistent with the purpose of DHS, the 
Administration is creating the SCO to focus on coordination of 
screening processes and procedures for people, cargo, conveyances, and 
other entities and objects that pose a threat to homeland security.
    Secretary Chertoff, who was confirmed recently, has been briefed 
and has endorsed the concept of the SCO. As the Committee may know, he 
is currently undertaking a review of the major policy and operational 
issues facing the Department; therefore, following this review, he will 
determine how the SCO and other Department initiatives will move 
forward.

Background
    As a result of the attacks of September 11, various statutory 
requirements and assessed security needs, the Department has instituted 
a number of layered security measures, including screening processes. 
Many of these screening processes require interoperability among 
systems within DHS and across the Federal government.
    One example of this type of security measure using screening is the 
United States Visitor and Immigrant Status Indicator Technology (US-
VISIT) program. This program adds biometrics to the screening process 
and allows the Department of State visa issuance officials to check 
foreign visa applicants against terrorist and criminal databases as 
well as other relevant data resources before a visa may be issued. Once 
the approved applicant arrives at the U.S. border, his or her passport 
and biometrics and biographic data are matched by a Customs and Border 
Protection (CBP) Officer, using the US-VISIT system, to ensure that the 
person presenting the document is the same applicant who received a 
visa and rechecked against the watchlists. The CBP Officer determines 
whether the person should be admitted into the United States or not. In 
addition, visitors traveling under the Visa Waiver Program are also 
enrolled in US-VISIT. Through US-VISIT, DHS is apprehending criminals 
and denying admission to other persons who have attempted to enter the 
United States illegally.
    One of the significant achievements of US-VISIT is that privacy 
protections have been embedded into the operational architecture of the 
program. US-VISIT is staffed with a dedicated Privacy Officer who is 
directly involved in the development and review of all US-VISIT 
functions. The Privacy Officer reports both to US-VISIT management and 
to the DHS Chief Privacy Officer. Through this management approach, US-
VISIT has been successful in identifying the potential privacy impact 
of new program functions, resolving issues as they arise, and making 
US-VISIT operations transparent to the public.
    Since the tragic attacks of 9/11, the U.S. has taken many 
significant actions to enhance our homeland security (the enactment of 
the USA PATRIOT Act, the creation of the Transportation Security 
Administration, the Department of Homeland Security, and the 
implementation of US-VISIT). The 9/11 Commission report reaffirmed the 
importance of screening processes such as US-VISIT and called for 
better integration and improvement of terrorist-related processes. In 
addition, Homeland Security Presidential Directive-11 (HSPD 11), issued 
on August 27, 2004, directed DHS, in coordination with other Federal 
agencies, to ``enhance terrorist-related screening through 
comprehensive, coordinated procedures. . .in a manner that safeguards 
legal rights, including freedoms, civil liberties, and information 
privacy guaranteed by Federal law.''
    The establishment of the SCO within DHS is key step to build upon 
the broad range of existing government and private sector security 
initiatives that will result in a comprehensive, coordinated and 
integrated screening environment.

Mission
    SCO will enhance the interdiction of terrorists and the instruments 
of terrorism by streamlining and strengthening terrorist-related 
screening through comprehensive coordination of procedures that detect, 
identify, track, and interdict people, cargo and conveyances, and other 
entities and objects that pose a threat to homeland security. The 
mission, of course, must safeguard legal rights, including freedoms, 
civil liberties, and information privacy guaranteed by Federal law.
    By establishing the SCO, DHS will work to obtain a seamless set of 
systems, data, processes, and procedures coordinated with other federal 
agencies that would achieve many benefits: deny access to the United 
States, our transportation systems, critical infrastructure, and other 
benefits to people, cargo, and conveyances, and other entities and 
objects that pose a threat to homeland security; facilitate the 
expedited and efficient movement of people, cargo, and conveyances, 
leading ultimately to a better experience for travelers, shippers and 
anyone else who engages with our screening programs; promote better 
public awareness of and compliance with screening programs; create more 
operational efficiency through integration and the elimination of 
duplicative efforts across the government; ensure the integrity of the 
screening systems, and; protect personal and institutional privacy and 
other rights and freedoms that are essential to our way of life.
    The streamlining and integration of these programs by the SCO will 
result in greater accuracy in screening and provide for consistent 
policies and training on the protection of civil liberties and privacy.
    Another critical element of effective screening is effective 
information sharing and collaboration. The SCO will work closely with 
DHS' Information Sharing and Collaboration Office (ISCO) to coordinate 
intra-agency information sharing and collaboration requirements related 
to screening efforts as these are identified. The ISCO is located 
within DHS' Information Analysis and Infrastructure Protection 
Directorate.

SCO Organization
    As proposed in the President's fiscal year 2006 budget request, the 
SCO would integrate program management of the following DHS screening 
activities:
<bullet> US-VISIT (United States Visitor and Immigrant Status Indicator 
Technology (US-VISIT)
<bullet> Secure Flight domestic passenger prescreening (TSA)
<bullet> International Flight Crew Vetting (TSA)
<bullet> Free and Secure Trade (FAST--driver registration only) (CBP)
<bullet> Nexus/SENTRI (CBP)
<bullet> Transportation Worker Identification Credential (TWIC) (TSA)
<bullet> Registered Traveler (TSA)
<bullet> Hazardous Materials Commercial Driver Background Checks (TSA)
<bullet> Alien Flight Student Background Checks (TSA)
    The first phase of the SCO will integrate screening processes that 
focus on people.
    While the Secretary has endorsed the SCO concept, there are many 
critical details still to be determined. For that reason, the Secretary 
is currently undertaking a full review of this proposal, including such 
issues as: the appropriate structure for the SCO; its relationship to 
operational entities; and the migration plan to smoothly transition for 
fiscal year 2006. The Department recognizes the Congressional interest 
and oversight responsibility in this area, and, once the review is 
completed, will share and discuss further how the SCO is implemented. 
While work is ongoing, progress on the screening programs that have 
already been initiated will, of course, move forward.
    A key element of the success of the SCO is contained in the fiscal 
year 2006 request for Screening Administration and Operations. The 
fiscal year 2006 request includes $526 million and 192 FTEs in direct 
appropriations, and $322 million and 63 FTEs in fee funded authority. 
Specifically, in the direct appropriations, the request includes an 
increase of $50.2 million for the US-VISIT program, $49.4 million for 
the Secure Flight and crew vetting programs, and $20 million for 
Screening Administration and Operations. Included in this $20 million 
dollar line item is $6 million for 32 full-time equivalents (FTEs) who 
would be responsible for the delivery of this $847 million enterprise, 
because within the SCO, a cadre of experts will be needed to provide 
leadership and management for the effective and efficient integration 
of screening activities. In the fee funded accounts, the request 
includes authority to collect and expend $244.7 million for the TWIC, 
$22.5 million for Registered Traveler, $44.2 million for Hazardous 
Materials Truck Driver checks, and $10 million for Alien Flight School 
background checks.
    And now, we would like to provide the Committee with an update on 
some of the key programs proposed in the President's budget for 
inclusion in the SCO.

US-VISIT
    In January of 2004, US-VISIT was successfully implemented at all 
115 U.S. international airports and 14 seaports. In December of 2004, 
US-VISIT technology was expanded to the nation's 50 busiest land border 
crossings. Since its been in operation, more than 450 people with 
records of criminal or immigration violations have been prevented from 
entering the United States.
    US-VISIT intends to institute additional functional capabilities at 
the land borders, in particular radio frequency technology. In fiscal 
year 2005, US-VISIT will pilot this enhanced technology at various land 
border sites. This will provide US-VISIT with the information necessary 
to develop detailed plans and technical and infrastructure costs to 
determine the number of locations where entry/exit lanes and 
accompanying procedures can be implemented in fiscal year 2006.
    US-VISIT is also working on the vision for the 21st century 
immigration and border management system. Through this initiative, US-
VISIT will provide a new information module to field offices and 
agents--enabling them to see relevant and timely data from all 
partnering agencies about a person, not just about a single 
transaction. This investment will ensure that DHS and Department of 
State officers have comprehensive, accurate, relevant, and timely 
information in a single electronic view of a traveler (e.g., dates of 
previous entries and exits, watchlist, current immigration status, and 
immigration benefit status). This module will assist in identification 
of potential terrorists offshore, before they board an airplane, bus, 
cruise ship, car, or cargo vessel to travel the United States or when 
they change their status. It will provide a comprehensive mechanism for 
name vetting of visa applicants to DOS and DHS that provides the basis 
for the human element involved in the visa issuance process.
    The SCO should leverage the strong foundation of screening 
processes developed and fielded by US-VISIT, such as its work with 
biometric standards, and multi-agency application processes, by 
applying those fundamentals to other screening activities.

Secure Flight
    On August 26, 2004, the Secretary announced that DHS would pursue a 
new domestic pre-screening program called Secure Flight. This program 
will be piloted with two carriers in August 2005. Like US-VISIT, TSA's 
Secure Flight program would also transfer to the proposed SCO. The 
Secure Flight program would address the 9/11 Commission recommendations 
regarding use of watch lists, and would reflect recommendations 
received from Congress, the privacy and civil liberties communities, 
the aviation community, airline travelers and DHS's international 
partners.
    Secure Flight will shift the responsibility for checking passengers 
against terrorist watchlists from domestic and foreign air carriers to 
the Federal Government. This will improve the consistency of and 
response to watch list comparisons. Domestic flight passenger name 
record (PNR) information will be compared against records contained in 
the Terrorist Screening Center Database (TSDB). Secure Flight will 
significantly improve the Federal government's ability to prevent 
terrorists from boarding aircraft, help move passengers through airport 
screening more quickly, and reduce the number of individuals selected 
for secondary screening, while fully protecting passengers' privacy and 
civil liberties.
    Consolidating these checks within the Federal government will allow 
the automation of most watchlist comparisons; apply more consistent 
internal analytical procedures where automated resolution of initial 
``hits'' is not possible. It will allow for more consistent response 
procedures at airports for those passengers identified as potential 
matches. Consistent procedures will also help to enhance privacy and 
civil liberties protections. Significant progress has already been made 
by the U.S. government by providing greatly expanded No-Fly and 
Selectee lists to airlines to conduct checks on their own systems.
    As proposed in the President's budget, international passenger pre-
screening would continue to be conducted by U.S. Customs and Border 
Protection (CBP) through its Advanced Passenger Information System 
(APIS) and Passenger Name Record (PNR) authority. The Secure Flight 
program would be coordinated with APIS to the extent that integrated 
systems would be shared. This would ensure that both domestic and 
international prescreening is consistent and equally effective.
    Secure Flight will support the Department's goals of improving the 
security and safety of travelers on domestic flights, reducing 
passenger airport screening time, and protecting privacy and civil 
liberties. Secure Flight will protect the civil liberties and privacy 
of passengers and will include mechanisms to assist passengers with 
resolving instances in which they believe they have been unfairly or 
incorrectly selected for additional screening.
    Crew Vetting
    Crew vetting is a TSA program that uses computerized vetting, to 
assess potential threats presented by terrorists posing as cleared 
cockpit and cabin crew on inbound and outbound international flights. 
Crew vetting is the evaluation and analysis of airline crew lists 
against watch list and lost/stolen passport lists. This analysis allows 
intelligence analysts to evaluate the collected data to determine 
whether or not any crewmember is a potential threat to the aviation 
system.
    Aviation crew manifests are received 24 hours in advance of take-
off, or two hours in the event of a crew change. This information is 
provided directly from the airlines. The program is building a 
continuous ``Opt In'' database known as the Master Crew List, which 
will serve as a first database check as each airline submits Flight 
Crew manifests.
    The Crew Vetting Program allows DHS to mitigate risk by vetting 
airline crewmembers against the same terrorism-related information used 
for passengers.
    The SCO should leverage the strong foundation of screening 
processes developed within Secure Flight and Crew Vetting, such as 
establishing watchlist checks on airline passengers and personnel, and 
apply those sound practices to other screening activities.

The Importance of Privacy Protection
    Screening by its very nature requires the gathering and analyzing 
of large amounts of information, a significant portion of which is 
personally identifying. It is therefore important that consistent rules 
be put in place for the respectful handling of this information. The 
individual programs that will be coordinated through the SCO either 
have been or will be examined for their impact on privacy to the extent 
required by law. Completed privacy impact assessments are available for 
review on the DHS Privacy Office website at www.dhs.gov/privacy. 
Through improved management of the screening process and alignment of 
these programs under the SCO umbrella, DHS can deliver enhanced 
security with improved privacy protections.
    In coordination with an appointed Privacy Officer and the DHS Chief 
Privacy Officer, the SCO would be able to ensure that appropriate and 
consistent privacy protections are instituted for these consolidated 
screening activities, that DHS personnel are adequately trained in the 
need to handle personally identifiable information in a sensitive 
manner, that compliance with statutory privacy requirements is 
enforced, and that consistent redress is developed to handle complaints 
about the use of screening information. The Office of Screening 
Coordination, in fact, offers DHS the opportunity to further its 
strategic plan to ``defend America while protecting the freedoms that 
define America.''

Conclusion
    The Office of Screening Coordination and Operations is an 
expression of the longer-term vision we have outlined. It is a 
significant step along the way to achieving, as our vision statement 
says:
        ``a future state in which cross-border travel and in-country 
        immigration activities are simple and convenient for eligible, 
        low-risk persons, and virtually impossible for those who seek 
        to do harm or violate U.S. laws. Sec. 
        ``. . .a state in which decision-makers have complete access to 
        the information they need, when and where they need it, to make 
        the best, most informed decision every time. Sec. 
        ``[and]. . .an environment where technology is used to address 
        the challenges posed by volume, speed, and distance and where 
        best practices from across the Government and private sector 
        are shared and leveraged.''
    Thank you for the opportunity to share information on the 
establishment of the Office of Screening Coordination and Operations.

    Mr. Lungren. Thank you, Mr. Williams. I might tell you you 
were within 10 seconds of the 5-minute rule, so I appreciate 
that very much.
    The Chair now recognizes Ms. Carol DiBattiste, the Deputy 
Administrator, Transportation Security Administration, U.S. 
Department of Homeland Security, to testify.

       STATEMENT CAROL DIBATTISTE, DEPUTY ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Ms. DiBattiste. Good afternoon, Chairman Cox, Chairman 
Lungren, Ranking Member Sanchez and distinguished members of 
the subcommittee.
    Thank you very much for the opportunity to join my 
colleagues, Director Williams and Deputy Commissioner Spero, in 
telling you about the proposed creation of the DHS Office of 
Screening Coordination, better known as the SCO, in fiscal year 
2006.
    As you will hear from all of us representing DHS this 
afternoon, the new SCO has been proposed to enhance immigration 
and border management and transportation security by managing 
screening and credentialing programs in one central office. It 
is important that DHS coordinate security activities across the 
Federal Government to make our mission of securing the American 
people more effective and more efficient.
    Over the next several weeks, the Transportation Security 
Administration will assist Secretary Chertoff as he conducts a 
full review of the concept of consolidating the screening and 
credentialing programs in the SCO to make sure that it is 
organized the best way to successfully manage these critical 
programs.
    As proposed, the SCO would be comprised of many important 
programs that TSA conceived and continues to develop. Secure 
flight, under the Secure Flight Program, the responsibility for 
checking air passengers against terrorist watch lists will 
shift to the Federal Government and away from the air carriers. 
That is a change that will improve consistency and responses in 
watch list comparisons.
    TSA is currently testing its capabilities in this area 
using passenger data from June of 2004 and the watch list 
maintained by the Terrorist Screening Center. We soon will 
undertake limited testing to determine whether comparing 
passenger information to commercially available data can more 
accurately verify the identity of individuals. Results from 
this test as well as tests of comparison to the Terrorist 
Screening Center database will be made a publicly transparent 
as possible without compromising national security.
    The current year budget for Secure Flight is $34.9 million. 
The President's request for next year is $81 million. We plan 
to begin implementing the program with two airlines this 
August, and we will steadily increase the number of carriers 
online through fiscal year 2006.
    Crew Vetting, another program that will be going into the 
SCO, Crew Vetting Program checks all cockpit and cabin crew on 
every inbound and outbound international flight against 
available terrorism information prior to takeoff. We began this 
operation during the elevated threat period in December of 
2003. Today, we screen more than 30,000 crew members daily. We 
have identified known or suspect terrorists working for air 
carriers, and we have taken the necessary steps to prevent them 
from boarding flights or otherwise entering the United States.
    The current-year budget for Crew Vetting is $10 million. 
The President's request for next year is $13.3 million.
    TWIC, the Transportation Worker Identification Credential 
Program, will improve security by establishing an integrated 
credential based identify management program for transportation 
workers who require unescorted access to secure areas of our 
nation's transportation system. When fully implemented the 
program will ensure that the identity of each TWIC holder has 
been verified, that a robust background check has been 
completed on that identity and that each credential issued is 
positively linked to the rightful holder through the use of 
biometric technology.
    This program will enable TSA to implement the credentialing 
provisions of the Maritime Transportation Security Act. We are 
now working with the U.S. Coast Guard to implement regulations.
    The TWIC Program began initial operation on November 17, 
2004 and currently the TWIC prototype is in phase III of the 
pilot at Los Angeles-Long Beach, Wilmington-Philadelphia and at 
Florida's sea border ports. The prototype is scheduled to end 
in May and shortly thereafter we will report on its results. 
During fiscal year 2005, we will continue to test the TWIC 
prototype with a goal of issuing approximately 100,000 
prototype credentials.
    The current-year budget for TWIC is $5 million, and 
beginning next year we expect to fund the TWIC Program through 
fee collections as we continue to develop the program.
    Registered Traveler, TSA's Registered Traveler Pilot 
Program is testing the use of biometric technology to enhance 
identity verification at passenger screening checkpoints. It 
includes a name-based security assessment utilizing 
intelligence and law enforcement databases and a check of 
outstanding wants and warrants for each applicant to the 
program. The goal of the program is to see that if a registered 
traveler program would speed up screening at airports with 
shorter lines at security checkpoints and reduce secondary 
screening, at the same time maintaining a high level of 
security.
    The current budget for Registered Traveler is $15 million. 
Beginning next year we would expect to fund the program with 
fee collections.
    HAZMAT, hazardous material commercial drivers background 
checks. The U.S. Patriot Act requires TSA to conduct a security 
threat assessment on every driver who applies for, renews or 
transfers a hazardous material endorsement on his or her state-
issued commercial driver's license. Under TSA rules, certain 
individuals will not be allowed to hold a HAZMAT endorsements. 
TSA has completed name-based security threat assessments on all 
2.7 million HAZMAT drivers, generating more than 100 referrals 
to law enforcement agencies and revocations of HAZMAT 
endorsements.
    Fingerprint-based criminal history record checks began in 
all 50 states and in the District of Columbia on January 31, 
2005 for new applicants, and they will begin by May 31 of 2005 
for drivers transferring or renewing their endorsement.
    The HAZMAT Program is currently entirely fee-funded. TSA 
uses discretionary funding this year to cover contingencies 
associated with standing up the program. Next year, we expect 
to conduct background checks on 400,000 drivers.
    And, finally, the Alien Flight Student Program, also going 
to be merged into the SCO. In December of 2003, the FAA 
Reauthorization Act, Vision 100, transferred responsibility for 
the alien flight student vetting from the FBI to TSA. This 
program reviews and assesses personal biographic and biometric 
information in order to help identify individuals who pose a 
security threat to aviation or national security.
    Prior to 9/11 attacks, there were no systematic security 
checks performed on alien pilots who receive training in the 
United States. And in fact, seven of the 9/11 hijackers took 
flight training here in the United States. This program began 
in late September 2004. We currently conduct a security threat 
assessment through name-based terrorist and fingerprint-based 
criminal background checks on all alien flight students, 
including those trained in aircraft less than 12,500 pounds.
    This program is entirely fee-funded. We have utilized some 
discretionary funding this year to cover contingencies 
associated with standing up the program, and we expect to 
conduct background checks on 14,000 flight students this year 
and 15,000 flight students next year.
    Chairman thank you for granting me this opportunity to 
discuss with you TSA's efforts to secure our nation's 
transportation system through vetting and credentialing. We are 
committed to working with our partners at DHS in the coming 
months to complete the review of the plans to consolidate these 
critical programs, and I would be happy, of course, to answer 
any questions you may have on this subject.
    [The statement of Ms. DiBattiste follows:]
    See page 10.
    Mr. Lungren. Thank you, Ms. DiBattiste.
    The Chair now recognizes Ms. Deborah Spero, the Deputy 
Commissioner, U.S. Customs and Border Protection, U.S. 
Department of Homeland Security, to testify.

STATEMENT DEBORAH J. SPERO, DEPUTY COMMISSIONER, BUREAU OF U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Spero. Thank you, Chairman Lungren, for holding this 
hearing, and good afternoon, Chairman Cox, Chairman Lungren and 
Ranking Member Sanchez and other distinguished subcommittee 
members. It is a pleasure to appear before you today.
    My colleagues have spoken extensively about the merits of 
the administration's proposal to create an Office of Screening 
Coordination and Operations, or SCO. I certainly concur with 
their statement, and I will now add a bit about how Customs and 
Border Protection, CBP, will support the SCO by describing some 
of the successful CBP strategies and screening efforts and 
include some historical perspective of those initiatives. I 
will close with some observations regarding the value of the 
SCO.
    U.S. Customs and Border Protection includes more than 
41,000 employees to manage, control and protect the nation's 
borders at and between the official ports of entry. As the 
principal agency responsible for protecting our borders, CBP's 
mission is vitally important to the protection of America and 
the American people.
    CBP's priority mission embraces two goals: To prevent 
terrorist and terrorist weapons from entering the United 
States, while also facilitating the flow of legitimate trade 
and travel. We call these our twin goals.
    Working at over 300 ports of entry, CBP faces the challenge 
of an enormous volume of trade and travel. On an average day, 
more than 1.1 million passengers, nearly 65,000 trucks and 
commercial cargo containers and over 365,000 vehicles seek to 
enter the United States. The use of screening and effective 
targeting and analysis are critical to our ability to meet this 
challenge. In fact, every day CBP officers refuse entry to an 
average of 1,200 non-U.S. citizens who are ineligible for 
admission to the United States. We also seize over 2,300 pounds 
of narcotics every day.
    Since the late 1980's, CBP, previously Legacy Customs and 
Legacy Immigration and Naturalization Service, has used data 
from the Advanced Passenger Information System, APIS, and 
Passenger Name Records, PNR, or reservation data to support 
screening of arriving international passengers.
    Before 9/11, this data was provided on a voluntary basis, 
but in 2001 the Aviation and Transportation Security Act 
mandated the collection of APIS and PNR from carriers. CBP 
screens this data through the automated targeting system and 
makes that data available to CBP officers at the National 
Targeting Center and at analytical units located at the ports 
of entry. The results of this targeting process are used by CBP 
officers on the frontline to make decisions regarding potential 
terrorists and other law enforcement threats.
    Similarly, I might add, CBP receives electronic manifests 
for sea, air and rail cargo which are matched with entry and 
other data through the automated targeting system, with the 
results fed back into the automated commercial system to 
support release or examine decisions by CBP officers at the 
ports of entry. And the new Automated Commercial System, or 
ACS, adds an electronic manifests for truck cargo to this 
process.
    The National Targeting Center was created in November 2001 
as a centralized organization for research, targeting and 
analysis, analyzing data from many sources along with current 
intelligence to serve as a focal point for CBP's field 
locations and to support CBP officers on the front lines.
    As I mentioned earlier, the NTC, working with analytical 
units located in the ports, provides targeting information to 
CBP officers. The NTC also responds to requests from frontline 
officers on a real-time basis to research potential risks 
presented by passengers and cargo seeking to enter the country. 
The NTC, which is staffed with experience CBP officers, plays a 
vital role in ensuring that those officers stationed at the 
ports of entry and overseas have the best possible targeting 
and analysis support to effectively address the vast flow of 
passengers and cargo coming to the United States every day.
    US-VISIT adds a valuable tool to the screening strategies 
deployed to the front line to meet the challenges of processing 
the millions of arriving international passengers. CBP has 
worked closely with the US-VISIT Program Office to develop and 
deploy technology to collect biometrics from arriving 
international passengers and screen against law enforcement 
databases. The US-VISIT has been rolled out to 115 airports, 14 
seaports and the top 50 land border crossings. This technology 
has been extremely useful in assisting CBP officers with 
identifying individuals with outstanding arrest warrants or 
questionable admissibility issues.
    It is important to note that this biometric technology 
works in conjunction with biographic data obtained through the 
APIS initiative and further analysis by the NTC and field 
analytical units.
    The massive number of passengers seeking entry into our 
country requires extensive use of the principles of risk 
management. In simple terms, risk management is essential in 
order to distinguish between the vast majority of legitimate 
travelers from those who would seek to do harm to our country. 
Registered traveler programs provide CBP with the ability not 
only to make this important distinction but also to facilitate 
legitimate travel and direct our own resources to those who 
present a potential risk. In fact, since the terrorist attacks 
of September 11, CBP has placed great emphasis on expanding 
registered traveler programs for passenger vehicles and 
individuals on our land borders with Canada and Mexico.
    I would like to explain how these programs are working 
today. Three of these programs are Nexus, for northern border 
vehicle drivers and their passengers, Century, for southern 
border vehicle drivers and their passengers, and FAST, for 
commercial truck drivers on both the northern and southern 
borders. All three of these programs offer expedited and where 
possible dedicated entry lanes for registered, vetted and low-
risk individuals.
    CBP has expanded Nexus from a small pilot that was 
suspended in the aftermath of the terrorist attacks to a robust 
registered traveler initiative with over 75,000 enrollees at 11 
northern border locations. Century has 77,000 enrolled members 
at 3 southwest border locations, and expansion is being planned 
to 4 additional locations this year.
    A registered and vetted program for commercial truck 
drivers, FAST, or Free and Secured Trade, was also developed in 
the last few years. FAST is currently operational at 20 
locations at the northern and southern borders, with over 
37,000 drivers enrolled. All three of these programs enroll new 
members every day.
    Nexus, Century and FAST all identify low-risk registered 
travelers through an application, vetting and fingerprint name 
check process, thereby allowing resources to be focused on more 
high-risk unknown travelers. To support these programs. CBP has 
developed enrollment processes for applications vetting, 
biometric captures and face-to-face interview of participants 
with CBP officers. CBP also has databases, hardware policy and 
procedures in place to run day-to-day operations in all 
registered traveler environments.
    Furthermore, Nexus and FAST Programs have been developed as 
bi-national programs in conjunction with Canada under the 
auspices of the Shared Border Accord. CBP is also currently 
piloting an Air Nexus Program with Canada for expedited pre-
clearance from the Vancouver International Airport using 
biometric technology and an automated kiosk.
    Most recently, CBP has been fully engaged with the US-VISIT 
Office and TSA in developing an International Registered 
Traveler Pilot Program. This program would encompass the best 
practices of existing CBP and TSA programs and would fully 
utilize US-VISIT technology to ensure that vetted and low-risk 
travelers are offered expedited service through CBP and TSA 
processing. This project is also envisioned to become global in 
scope, and preliminary discussions have already been held with 
the Dutch government to develop a bilateral registered traveler 
initiative.
    Clearly, some coordination has taken place among DHS 
agencies. However, the SCO would provide an even greater 
opportunity to engage in systematic and comprehensive 
coordination of screening programs. Although the operational 
agencies within DHS have been chartered with different 
missions, rely on different statutory authorities and operate 
in different environments, there are, nevertheless, numerous 
opportunities through the SCO to optimize the standardization 
of systems, equipment and databases in a way that will take 
these differences into account.
    Thank you again for the opportunity to share information on 
the establishment of the Office of Screening Coordination and 
Operations. This concludes my testimony and I look forward to 
responding to any questions you may have.
    [The statement of Ms. Spero follows:]
    See page 10.
    Mr. Lungren. Thank you all for your testimony. I am going 
to ask a few questions at this point in time.
    You have a number of different systems here, number of 
different databases. I recall as Attorney General of California 
I was the head of the WSIN, the Western States Information 
Network, which originally started as an information sharing 
among a number of different law enforcement agencies with 
respect to fighting drugs. When we expanded it to go into 
gangs, we realized that there was a different set of criteria. 
We had to make sure that people who shouldn't have access to 
gang information didn't get that, even though they had 
information to the other parts of WSIN. As we developed pointer 
systems and so forth, we had to make sure that there were 
safeguards.
    The thing that would defeat something like this the fastest 
is if we didn't make sure that we had appropriate privacy 
standards and privacy guards here. I presume that with the 
various different databases you have different standards of 
privacy depending on the particular program involved.
    First of all, is that true, and, second, how do you seek to 
coordinate these various databases without running into the 
problem of some people having access for an appropriate manner 
for a particular database but not for another under privacy 
concerns?
    Mr. Williams. Chairman, let me first talk about this in 
terms of the US-VISIT Program. This is a program where privacy 
is one of our top four goals, and we take it very, very 
seriously because we want people to feel comfortable when we 
collect that information that it will be shared only with those 
people on an appropriate basis.
    All of the programs that we are talking about that have 
databases like the databases that US-VISIT uses, have to comply 
with having systems of records notices, the Privacy Act of 1974 
and the E-Government Act. In fact, with US-VISIT those acts do 
not apply, strictly speaking, because we are talking about 
information today on foreign visitors. But in fact, DHS made a 
policy decision to apply those Acts to the US-VISIT databases. 
All of the systems today however have to build in security and 
privacy controls so that we know the general answers to privacy 
questions, which are ``what information are you collecting?'' 
``how long are you keeping it?'' ``who are you sharing it with 
and what are they doing with it?'' And all of these questions 
have been answered with regard to all of these systems.
    As we look to the future of the SCO, whether databases are 
combined or whether they are just simply linked, we need to 
continue to answer all of those privacy and security questions.
    Mr. Lungren. Before you answer, I would just say I would 
hope that when you make those decisions--I would expect before 
you make those decisions you would consult with Congress on 
those matters.
    Ms. Spero. Yes, we would, indeed. And I would just add to 
Jim's statement that we also take privacy very seriously. There 
are probably three ways to look--three elements of making sure 
that the data is secure. One of them is user IDs and password 
controls, another one is access controls, and the third is 
training. I am speaking of our employees. And that we are able 
to through these three elements ensure that employees 
understand what the restrictions on the data they are seeing 
and also that they only see what they are entitled to see based 
on need. So we can in fact take data and make it only available 
to certain groups and make a broader data available to larger 
groups. So it is possible, and we do in fact practice that.
    Ms. DiBattiste. Chairman, if I may add, on all of the 
programs that I discussed in my opening testimony, TSA has 
taken extreme measures to protect the privacy of the data and 
the individuals that are in the databases. And I would like to 
talk to you specifically Secure Flight, which I know has a lot 
of interest from this committee. We have developed a very 
comprehensive privacy package to support the Secure Flight 
testing, which is being done as we speak. And we already issued 
the privacy impact assessment which explains how the PNR data 
would be used and protected by TSA; A system of records notice 
that explains our statutory authority to collect the passenger 
information and conduct the testing; and what is called PRA, 
Paperwork Reduction Act Notice, was included in the order to 
obtain the data from the air carriers which they provided to 
TSA from which we did the testing. And after we did that, we 
got 500 comments back from the public on those three documents 
alone.
    We incorporated their comments and as much as we could and 
where appropriate and before we implement Secure Flight. I even 
have a little more to tell you about Secure Flight; we are 
going to be redrafting the Privacy Impact Assessment (PIA). It 
will be reissued to the public again, and the agency will then 
publish an interim final rule and seek comment from the public 
on these documents as well. So we are implementing every 
possible protection.
    As Deputy Commissioner Spero mentioned, we treat the data 
within the Secure Flight Program similar to those of you who 
have criminal backgrounds as an evidentiary chain of custody. 
It is treated as if it were evidence in a case. And we have a 
very controlled chain of custody on any data that we receive. 
We also train all of our people. Everybody at TSA has been 
required to go through privacy training, but on the Secure 
Flight Program they have all specifically received privacy and 
security training. Any medium that is used to transfer the data 
is locked in a high security safe when it is not in use. And 
this is regarding Secure Flight. We have daily inspections to 
ensure that the data is protected. And anybody that has access 
to the data facility is through key card and pin access to make 
sure that our data center is protected.
    So I can't say enough about how much we value the privacy 
protection in all of the programs, and we have done similar 
things with Registered Traveler, the HAZMAT Program. I could go 
through it, Alien Flight and TWIC in issuing all the proper 
notices and protecting the data.
    In this SCO consolidation, at this moment in time, we are 
not intending to commingle the databases. Now, I know Mr. 
Williams mentioned that at some future time if there is ever 
any intent to do that, we will be coming back to you.
    Mr. Lungren. Thank you very much.
    I now recognize the Ranking Member for questions.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I have several questions. The first is why wasn't Student 
and Exchange-Visit or Information System included in the SCO 
consolidation? I am interested because I still think there is 
some problems with it, and I also would like to see some 
improvements made there if it is in consolidation, because at 
least five of the 9/11 hijackers had student visas.
    So I just wanted to know where that was rolling, why you 
had decided to keep it out. Is it because it has problems that 
you didn't put it in this office, new office?
    Mr. Williams. SEVIS, the Student Exchange Visitor 
Information System, was at one time considered to be included 
in SCO. But the logic behind not including it was looking at 
those programs where they thought they were in discussions with 
OMB and DHS where there was more commonality around people 
screening.
    SEVIS is something that is particular to immigration and 
customs enforcement. In talking about student visas, that is 
something where those people holding student visas are screened 
by various methods that Deputy Commissioner Spero mentioned, 
including the US-VISIT's biometric screening as well as the 
biographic screening.
    And any of the programs that are out there that are not 
included today, I would say we will be looking across the 
department to determine at if it is a system or program that 
contains elements of what we should coordinate-whether it is a 
biographic, biometric database, an enrollment process, or 
analysis tools. We would look for commonality to be able to 
make sure we are coordinating all those things.
    But as I said in my oral statement, Secretary Chertoff will 
be looking at the SCO and will be doing this as part of his 
major operational and policy review of the departmental 
initiatives. So I am sure that all of these things will be 
looked at as part of the Secretary's review.
    But the logic behind leaving a program like SEVIS out of 
SCO was looking at, the critical people screening programs, 
whether it is clear commonality, and if it is a program that is 
particular to one operational entity. And, frankly, it was also 
part of looking at what is the right thing to bite off 
initially, how much could you take in and try and consolidate 
and integrate, at the same time looking eventually outside 
those boundaries to make sure you harmonize and synchronize all 
the other common elements that are particular to screening 
programs.
    Ms. Sanchez. I am also interested in the travel, and it 
happens either way. It has happened to me several times, either 
when you are at the airport or where you are crossing across 
the border. I am just trying to figure out who is setting the 
standards, what kind of--how are you going to end up on a list? 
What if you have the same name as somebody else who is on a 
list? How are we going to work with these people to make sure 
that they don't continually get stopped?
    Mr. Williams. Let me first answer. I know Deputy 
Administrator DiBattiste would like to answer too.
    One of the things that helps in this regard where somebody 
has the same name as someone on a watch list is biometrics, 
because biometrics are unique to the individual. And we believe 
biometrics help verify identity. And in fact, as our Chief 
Privacy Officer Nuala O'Connor Kelly often says, biometric 
programs help protect your privacy from somebody taking your 
identity.
    Ms. Sanchez. But how long is it going to take to have that 
in place? I mean, I have got people right now who?I represent a 
large Arab and Muslim community, and I have people who four or 
five hours sit at LAX every time they have to travel.
    Ms. Spero. Ms. Sanchez, first, I will answer your first 
question, how do people get on the no-fly list, and then I will 
attempt to answer how we try to help the traveling public when 
their name is similar to someone that appears on the list--it 
is not an exact match but it is similar to someone that appears 
on the list--and what we have instituted at TSA to try to help 
alleviate their concerns and their problems when they come to 
the screening checkpoints.
    First, how does someone get on the list, the no-fly list, a 
nomination is made by either the law enforcement community or 
the intelligence community. It could be the FBI, the State 
Department, CBP, the CIA. To the FBI for domestic persons and 
to the NCTC, the National Counterterrorism Center for 
International Persons. Then the FBI or the NCTC does a review 
and they then provide a nomination of that based on the 
information they have gotten from law enforcement to the 
Terrorist Screening Center.
    The Terrorist Screening Center then will review what the 
nominating agency has given to them, and they do an assessment. 
We have TSA people detailed there to do that assessment, to 
make that determination whether they are going to go on the no-
fly list, along with law enforcement people. And they make a 
decision whether to reject the person, nominate the person or 
accept the nomination, the Terrorist Screening Center does with 
TSA people detailed there.
    After that assessment is done, there is a constant review 
of that every six months. There is a review of the people on 
the no-fly list to ensure that they still should remain on the 
list.
    Now, your second question really goes to what happens when 
someone has a name that is similar to someone that is placed on 
the list, because it is really not someone that is erroneously 
placed on the list. The list is finite and we know who is on it 
and who isn't on it. But it is very rare that individuals are 
erroneously on the list. For instance, you mentioned the 
Senator, Senator Kennedy. His name was similar to someone that 
was on the list, and what we do then is we have a redress 
program that we are going to even make more robust when Secure 
Flight is initiated.
    But the redirect mechanism that is in place today is if 
someone has a name that is similar and the carriers implement 
the list right now. So the air carrier tells them, ``You can't 
fly, your name is similar to someone that is on this list.'' 
They can contact on our TSA web site, www.tsa.gov, and go in 
and contact our contact center, which is a call center. They 
give them what is called a PIVF, a Personal Identify 
Verification Form. They fill out that form, notarize that form 
and then we run them through our intel community and they 
verify whether they are really on the list or their name is 
just similar to someone on the list, and then we issue them a 
cleared letter. And that cleared letter they use from there on 
our to be able to get on the airplane.
    Ms. Sanchez. My constituents tell me that even when they 
carry this letter that they are still being pulled aside and 
that it takes--that they still get searched, et cetera, even 
when they are carrying this letter and that it could sometimes 
be up to an hour for them before they get let through.
    Ms. Spero. We are still working through expediting the 
process and that leads me to my third point, and that is the 
new Secure Flight Program that we are working and it is in 
testing right now. That will help solve a lot of this problem 
because it will be--the watch list will be in the hands of the 
Federal Government. Right now the carriers are executing and 
comparing the names on the list. Once Secure Flight is up and 
running, we will be comparing them. The name matches, we 
believe we will have less problems, what you call false-
positives, with the name matches, and we will be able to fine 
tune and people will not be delayed at the security checkpoint.
    But we are working through that, Ms. Sanchez, and we are 
improving it. Some are still delayed. It is based on individual 
carriers, and that is why we are working with the carriers on 
helping them move through the cleared letter and process the 
cleared letter a little bit faster. But with Secure Flight we 
are going to solve a lot of these problems that you mentioned.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Lungren. I might just tell members of the Committee the 
information we have received is that we have recessed subject 
to the call of the Chair on the floor, and at approximately 
3:15 we expect our first votes of the day.
    One of the lights is burned out. The Committee can't afford 
to pay for that right now.
    So now I recognize the Chairman of the full Committee, Mr. 
Cox, for his questions.
    Mr. Cox. Thank you very much, Mr. Chairman.
    Ms. DiBattiste, Ms. Spero, in the first case, TSA saw its 
Secure Flight Program contributed to the new office. On the 
other hand, the Advanced Passenger Information System was not 
contributed. If you could describe why in one case and not the 
other, starting with Ms. Spero.
    Ms. Spero. Yes, sir. I think the best way to look at it 
might be to think about APIS as a system, and Secure Flight 
perhaps is more of a program. APIS is in fact integrated with 
US-VISIT, which is part of the SCO. So APIS plays a major role. 
The fact that it is connected to CBP in terms of the way it 
works data-wise doesn't mean that it isn't fully integrated 
with US-VISIT. So I think it is more of a conceptual 
difference.
    And also we use APIS, as you know, in our National 
Targeting Center, which has a different function than the 
Secure Flight Program. So APIS feeds into the National 
Targeting Center analysis work.
    Mr. Cox. Ms. DiBattiste, do you want to add to that? Do you 
want to draw any distinctions between the two programs?
    Ms. DiBattiste. I think Ms. Spero addressed the major 
distinctions.
    Mr. Cox. All right.
    Ms. DiBattiste. We are domestic and APIS is international. 
I mean, that is another major distinction. And we do use APIS 
when we do the crew vetting. Now, that is another program that 
I briefly mentioned in my opening statement. So the TSA Crew 
Vetting Program where we are vetting the flight crews and the 
cabin crews, uses from APIS, because it is all international.
    Mr. Cox. Well, first, let me reiterate what I said at the 
outset, that I applaud the movement of the Department toward 
coordination and integration of these disparate screening 
systems. I also recognize that your plan of deployment is 
people first and cargo second. So that explains some of the 
decisions that have been made at the first pass to put things 
in and keep other things out.
    And I am now trying to understand the more fine 
distinctions that have been made between passenger screening 
programs or individual person screening programs so I can take 
a step back and not be too concerned that I think some of these 
distinctions are being made rather finely if I can be made to 
understand that this is a work in progress, that you expect 
that these programs will in fact all be ultimately coordinated 
and integrated but that this is a proper first pass. Or, 
alternatively, are you considering that because something is 
international and not domestic that it will be forever 
separate?
    Mr. Williams. Chairman, I would just say you used the 
correct words, ``coordination'' and ``integration.'' There will 
be other examples of systems that may not be under the SCO, 
such as the State Department's Consolidated Consolar Database 
(CCD) system, which is used by CBP as part of a US-VISIT 
system, so that when a traveler comes into the United States 
and the machine-readable zone of a passport or a visa is 
swiped, the CCD is accessed as part of that to put up on the 
screen of the CBP officer that photograph that was taken by the 
State Department visa issuing officer. And that photo that 
appears on the screen of the Customs and Border Protection 
officer then becomes part of the screening process, because 
they look to see if the photo on the screen--the photo that the 
State Department took--is the same as the person standing in 
front of them. That CCD then is part of the screening process. 
So there will be other systems and processes that have to be 
coordinated and integrated to make sure we have a harmonized 
system.
    Mr. Cox. Ms. DiBattiste?
    Ms. DiBattiste. Yes. Chairman Cox, if I may add, I think 
you stated it exactly correct. This is the beginning, and 
Secretary Chertoff has said in his few short days as being our 
new Secretary that he wants to do a review, a thorough review 
of everything that is going into the Screening Coordination 
Office. Then we are going to go from there and take what he 
calls a second stage review and look at all of the programs and 
then move to possibly cargo and conveyances.
    So I think this is the beginning of a process, and we are 
subject to review at the highest levels of the Department with 
consultation, with members of this committee, and I think you 
are going to see us doing whatever we can to integrate and 
consolidate while still protecting people's privacy and 
safeguarding their civil liberties.
    Mr. Cox. Thank you very much. My time is expired.
    Mr. Lungren. Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman.
    The question I have is two things. Is it true that in every 
major airport in this country that the workers who go to work 
every day are screened before they are allowed to go into the 
airport proper? Deputy Administrator?
    Ms. DiBattiste. Yes. Yes. All the workers that go into the 
sterile area are screened, and the workers that have access to 
the SIDA are not. We have a plan and we are still working on 
moving forward. That is one of our number one issues for this 
year. One of our number one goals is thorough SIDA access, 
access control and working on what we can do to screen all 
workers.
    Mr. Pascrell. Well, I think that is critical. It has been 
asked both on the Transportation Committee and in Homeland 
Security, both Select Committee and now I am asking it. Because 
that was not the case before, and we brought this up many 
times. And what you are telling me is that every worker who is 
not screened we intend to screen before that worker can go to 
work every day.
    Ms. DiBattiste. What I am saying is if they are going into 
the sterile area, they have to be screened, physically 
screened.
    Mr. Pascrell. So, in other words, they are going to be 
treated like a passenger.
    Ms. DiBattiste. But the SIDA people going into the SIDA 
area still can get into the SIDA with their badge, and that is 
our next phase of the process.
    Mr. Pascrell. And we intend to inspect those as well, 
eventually.
    Ms. DiBattiste. Yes, sir.
    Mr. Pascrell. When this program is up and ready; is that 
correct?
    Ms. DiBattiste. Yes, sir.
    Mr. Pascrell. OK. Mr. Williams, what progress has DHS made 
to date to ensure that passengers on international flights are 
checked against a watch list?
    Mr. Williams. Today when somebody is coming into the United 
States, through the APIS system the airlines send the arrival 
manifest 15 minutes after wheels up. That arrival manifest is 
checked while those people are in the air against the terrorism 
screening database. And when that person arrives, the passport 
or visa that is swiped then tells the officer whether that 
person has been a hit against those biographic watch lists.
    In addition, when those people arrive at a Customs and 
Border Protection port of entry and are included in US-VISIT, 
they put down their biometrics using the digital finger scans 
and digital photograph, they are checked against a watch list 
biometrically. So they are checked two different ways.
    Ms. Spero. If I may add to that, in addition to the APIS 
information that comes in on passengers, we also have passenger 
name record information, which is the airline reservation 
system, and that is also taken into account, along with other 
databases, including the terrorist watch list targeting rules 
are applied, and that information is provided through the 
National Targeting Center, through the CBP passenger analytical 
units so that by the time the flight arrives the frontline 
officer has the information he needs to know who is a potential 
risk.
    Mr. Pascrell. So this is a far cry for what we are learning 
after the 9/11 Committee report came out, and the FAA showed a 
very severe lack of coordination and communication abilities 
and telling folks who were on those flights. I mean, a lot of 
it is redacted, of course, I mean, we don't know what the heck 
happened when you look at the redacted report. Something went 
on between April and August of 2001, and that is not just a 
lack of communication. There was a total breakdown of the 
ability of Federal agencies to protect this country and its 
residents.
    Do you think what you have seen so far, Madam Deputy 
Commissioner, what you have seen so far have we improved the 
position, the operations of communications to the extent that 
we could avoid or should be able to avoid all of them, most of 
the breakdowns that occurred during that six-month period? That 
is a tough question, but you are up for it.
    Ms. Spero. I am not sure I can answer definitively because 
there is more to what happened in 9/11 than what the functions 
of Customs and Border Protection and so forth as far as the 
intelligence aspects of it. But you do see now all of the 
government coming together with the establishment as Deputy 
Administrator DiBattiste mentioned, of how the terrorist 
screening database is constructed. Many different agencies play 
into that determination. The fact that we work with the 
carriers and that we have a partnership also with US-VISIT so 
that all international passengers are truly screened, analyzed 
and targeted before they get to the frontline officer. So I 
would say that we have made vast improvements.
    Mr. Pascrell. Mr. Chairman, just in conclusion, I am not 
that concerned about the inconvenience which all of us, many of 
us seem to be complaining about. If folks are doing their job 
and if the agencies are doing their job, we are going to have 
to be inconvenienced. This is called shared responsibility, and 
we should try to facilitate folks going through airports, but 
we should not be doing the bidding of the carriers.
    And if you look at the history of this problem, many of 
these problems--I am not just talking about airlines here--but 
if you look through the history of this, we have done their 
bidding for many, many years, even long before 9/11. So the 
inconvenience is one thing, but we want to make sure we protect 
America. That is most important.
    Thank you, Mr. Chair.
    Mr. Lungren. Thank you, Mr. Pascrell.
    And now Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman.
    I appreciate your testimony today.
    As I listened to Ms. Spero, can you give me a list of all 
the numbers of people who are affected? You read through a list 
that 65,000 people are checked in the air, 14,000 foreign 
pilots. It would be nice to have that measuring stick. Can I 
get a copy of your testimony? I did not have that in my packet.
    Ms. Spero. Sure.
    Mr. Pearce. OK. I would appreciate that.
    I would like to offer a different perspective than my 
friend who just testified, that one of the concerns that we 
have to reach in the security business is also making sure that 
commerce is represented. We can shut down all industry and we 
can shut down every single trucking, cargo, shipping business 
that exists, and we can get a very secure nation, we just won't 
have much of an economy left. What feet at the table, as you 
have discussions about the procedures, do businesses have?
    Ms. Spero. Well, if I might start, that is a subject near 
and dear to our hearts. As I mentioned, CBP views its mission 
as having twin goals, which is in fact preventing terrorists 
and terrorist weapons from entering the United States while 
facilitating the flow of legitimate trade and travel. And 
getting that balance is something that we have been striving 
for with all of our strategies. We have a number of 
partnerships that we are extremely proud of. One of them is the 
Customs Trade Partnership Against Terrorism, CTPAT, which we 
started immediately after 9/11 when there was legacy Customs 
working with all members of the trade community to establish 
greater security in our supply chain.
    Mr. Pearce. If I might interrupt, what seat does business 
have--do they actually have a representative that sits in on 
your discussions?
    Ms. Spero. CTPAT members are actively part of forming--
consulting with us on all of our policies.
    Mr. Pearce. But they are actual businesses.
    Ms. Spero. Yes. CTPAT members are household names. They are 
importers, they are carriers.
    Mr. Pearce. OK. Thank you. Yes, that is fine. Just want to 
check.
    Mr. Williams. Can I add to that? You asked how does 
business have a seat at the table. I think DHS may be unique by 
having the position of a Special Assistant to the Secretary for 
the private sector, Al Martinez-Fonts. In addition, we also 
meet with stakeholders, U.S. Chamber of Commerce--.
    Mr. Pearce. OK. That is fine. We are kind of running out of 
time here. The one function that you are bringing in that was 
handled by that airlines before and you are now bringing it 
over into your function, is it possible to get a cost that the 
airlines assessed for that service and compare it to the cost 
that you all are going to use on the service?
    Ms. DiBattiste. We will get that for you.
    Mr. Pearce. The administrative section that is going to 
take--I forget the figures--$6 million for 32 people, can I get 
a copy of the budget request all the way down? If it is just 
salaries, that is sort of high. And is it possible also for you 
all to get us some examples of actually the improved 
coordination that you are hoping to achieve with this springing 
together of departments and security functions.
    What I am looking for there is some of the stumbling blocks 
that have been provided in the past that you see are going to 
be improved by this because it is easy to just say we are going 
to get improved coordination and sometimes we aren't going to 
get improved coordination at all.
    Why is the free and secure trade the smallest piece of your 
budget? Out of an $847 million budget, $7 million is dedicated 
to the free and secure trade and that was maybe at the heart of 
my question on what are we doing to make sure business still 
occurs?
    Ms. Spero. The FAST Program is actually up and running. It 
is an operational program, and it will be expanded. It has been 
developed in concert with the private sector, notably many of 
the major auto companies. And the costs are relatively low to 
that program because it relies on very little in the way of new 
technology other than transponders.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Lungren. We have gotten notice that there are two votes 
on the floor, one a 15, one a 5-minute. And after Mr. DeFazio 
has his opportunity to ask questions, we will break for 
approximately 20 minutes.
    Mr. DeFazio. Thank you, Mr. Chairman. Ms. DiBattiste, I 
would like to go to secure flight and registered traveler. I 
note on the registered traveler that you are assuming some 
fairly substantial revenues in 2006. Does that mean we are past 
the pilot and into an expansion of the program?
    Ms. DiBattiste. No, it does not, Mr. DeFazio. We are still 
in the pilot. We have the five pilots, and they are--.
    Mr. DeFazio. But may I ask what--?
    Ms. DiBattiste. Yes, sir.
    Mr. DeFazio. --sense the current pilot program makes. You 
have to fly a certain airline out of a certain airport in order 
to be in the pilot program. It isn't that you fly out of that 
airport all the time or it isn't that you fly--I stood in a 
very long line with many other frequent travelers and looked at 
the unutilized machine there at National with no one using it 
because we are all in the line for all the other airlines in 
that terminal, I don't understand.
    I mean, since we are moving toward the government 
controlling things, why doesn't the government issue the 
frequent traveler IDs to people who apply to the government and 
pay a fee as opposed to having to use a certain airline out of 
a certain airport to do a certain thing?
    Ms. DiBattiste. Well, one of the things we are looking at 
is testing the biometrics as a pilot and looking at 
interoperability. That is our issue right now on whether we are 
going to expand the pilot. Because, you are right, you have to 
be at a certain airport and only a certain carrier. So we are 
looking at solving the interoperability issue, and that is one 
of the purposes of the pilot.
    Mr. DeFazio. I appreciate that, but I don't understand the 
interoperability issue. The government sets the standard, you 
issue a card, you use the standard machines that are linked to 
a database. But, in any case?
    Ms. DiBattiste. But you know we have a commercial pilot 
that is being tested in Orlando, the Public-Private Sector 
Pilot, that will also give us a lot of interesting area to 
improve and expand and do some of the things that you are 
suggesting, because it is a public-private partnership. We 
would set the standard, we would do the background checks, but 
the private sector will actually do the enrollment. And that 
might be the answer to your concerns.
    Mr. DeFazio. Well, I am sorry to hear the government is 
that inefficient that you can't do this. I mean, I have got my 
concealed carry permit with me. I had an FBI background check 
to get it. Other people in all the states do this. I mean, it 
is not biometrics yet. I mean, it doesn't seem like rocket 
science.
    Let's go to Secure Flight and CAPPS II. We are still 
utilizing CAPPS II whose criteria are well known, correct? That 
is, you buy a one-way ticket, oh, you are going to come up. You 
are a threat. You buy cash, whoops, you are going to come up. 
You are in the Frequent Flyer Program. Well, you are not going 
to come up. We are still using that, right?
    Ms. DiBattiste. No, we are not still using CAPPS II.
    Mr. DeFazio. OK. Then how are we charging--.
    Ms. DiBattiste. That is CAPPS I that you are describing.
    Mr. DeFazio. Well, CAPPS II isn't much more sophisticated. 
How are we then selecting people. We are using CAPPS II to 
select people.
    Ms. DiBattiste. No. CAPPS II is no longer--.
    Mr. DeFazio. When you get the black X's on your ticket.
    Ms. DiBattiste. That is CAPPS I, sir.
    Mr. DeFazio. Well, and that doesn't happen anymore?
    Ms. DiBattiste. We still use CAPPS I that generates a 
random number of selectees, and it does also--.
    Mr. DeFazio. Do you know what terrorism experts say about 
random selection and how likely it is that you are going to 
deter and/or find a threat?
    Ms. DiBattiste. But that is why we are going to Secure 
Flight.
    Mr. DeFazio. Right. Now, that is the problem. I don't think 
Secure Flight is ever going to work, but maybe it will. But 
back to the trusted traveler, what percent of the people take 
what percent of the flights? Are you aware of those statistics? 
That is a very small number of people take a very large number 
of the flight. Are you aware of that?
    Ms. DiBattiste. Yes.
    Mr. DeFazio. OK. Now, wouldn't it make sense to expedite 
those people through and then focus on the other three quarters 
of the passengers who are unknown until such a time as you have 
Secure Flight, which I am not sure you ever will beyond some 
sort of test phase. And by getting those people through your 
system, you then have all the others who are occasional 
travelers over here.
    It would also help the airlines; they are all going broke, 
because they are losing all their business execs because they 
are all going to corporate jets who you don't screen, by the 
way. I mean, in any of these ways, yes, we do some very cursory 
sort of checks on people getting on a corporate jet but not 
much, and they don't stand in the line.
    So you are hurting the airlines, you are jamming up the 
airports, you are focusing on the wrong people, and we have 
been doing this for 3 years now. You would think at this point 
we could begin to evolve beyond the original primitive CAPPS 
system and we could also expedite what is a known technology 
and in our military, in all our nuclear plants and everywhere 
else with the so-called Secure Traveler card and biometrics. It 
is off-the-shelf technology.
    Ms. DiBattiste. Mr. DeFazio, that is exactly where we are 
headed. The biggest complaint from the air carriers is that 
they have to compare the watch list every day. We are taking 
that away from them. It will reduce the number of selectees 
once we get Secure Flight up and running. It will reduce it in 
half.
    Mr. DeFazio. If you do. OK. Then how do we know that the 
person whose name came up as not a threat name is that person? 
That is the other problem with Secure Flight. You don't know 
that is the person. You are not using biometrics. That person 
is using an ID card, which Mr. Mica famously had his staff 
download from the Internet and create driver's licenses from a 
number of states with IDs on them in an hour's time and that 
will be the basis for how you determine whether that person who 
you just ran through the system that you took 3 years to 
construct, maybe it is really not that person.
    Ms. DiBattiste. Well, that is one of the reasons why we are 
doing the testing now, the original testing and now the 
commercial database testing, so we can reduce the number of 
what is called false-positives. And we believe that--.
    Mr. DeFazio. No, no. I am getting to the--you know, someone 
steals your name, your good name, they manufacture a fake ID, 
they are flying as Carol DiBattiste, and they have a driver's 
license that shows them to be Carol DiBattiste, and they are 
not going to pop up under that system.
    I mean, the basic flaw in Secure Flight is you don't know 
whether that name and that person are that person. Whereas 
under Registered Traveler you are using biometrics. By not 
focusing on Registered Traveler and getting to a small number 
of people who take a very large number of flights, diverting 
them out of system and then focusing the remaining security on 
those other people, we are creating vulnerability.
    Ms. DiBattiste. But, sir, that is exactly what we are 
doing. Secure Flight keeps bad people off airplanes. Registered 
Traveler let's the good people--.
    Mr. DeFazio. You just explained my point. It keeps bad 
names off airplanes. It doesn't keep bad people off airplanes. 
There is a difference. Someone who manufacturers an ID of a 
good name isn't going to come up with a bad name. I am a 
terrorist, I am whatever, X Smith, well-known terrorist. Tell 
you what, I am not going to use my name when I get on the 
plane. I am going to use someone else's name and ID, which I 
have stolen, and I am going to get on the plane and Secure 
Flight isn't going to find them because that other good citizen 
whose name they have temporarily stolen is not in your 
database. So that is the flaw with that system.
    Mr. Lungren. The gentleman's time has expired, although the 
gentleman has not expired.
    [Laughter.]
    We will stand in recess subject to the call of the Chair 
for now 10 minutes.
    [Recess.]
    Mr. Lungren. [Presiding.] The subcommittee will reconvene 
and recognize Congressman Dicks.
    Mr. Dicks. Thank you, Mr. Chairman. I want to congratulate 
you on coming back to Congress and also being Chairman. I think 
it is terrific.
    Mr. Williams, going on 3 years now, you and I have been 
discussing the importance of making sure that US-VISIT is 
interoperable with other existing databases to ensure that we 
are getting the system that the Nation needs and that Congress 
mandated. Indeed, as early as 2003, Congress is on the record 
stating that it is essential for US-VISIT and the IDENT system 
DHS uses to be interoperable in real time with IAFIS, the FBI's 
criminal database.
    In August of 2004, metrics study, a report done by the 
Department of Justice, shows exactly why this interoperability 
is so important. Almost three-quarters of the criminal aliens 
encountered at Border patrol stations and ports of entry were 
identified only by checking the FBI's system and would not have 
been identified by checking IDENT alone.
    As we both know, checking incoming aliens against the FBI's 
database during the US-VISIT process is not feasible because of 
the administration's decision to use two flat fingerprints 
instead of 6, 8 or 10, 10 being preferable, which likely would 
improve the accuracy rate enough to make this work.
    I am sure you have seen the review of the status of that 
IDENT, IAFIS integration issued by the Justice Department 
Inspector General in December. Justice argues that this effort 
has stalled primarily because of the inability of DHS and the 
State Department to adopt a uniform method of collecting 
fingerprint information that conforms to the NIST standard put 
forward in 2003. DOJ concludes that the Federal Government may 
face significant costs to reengineer its fingerprint 
identification system in the future to implement a uniform 
fingerprint technology standard to make all the systems fully 
interoperable.
    Mr. Williams, Congress brought the issue of 
interoperability up 2 years ago to ensure that we wouldn't have 
to create this system and spend the money to do so twice. I am 
deeply concerned that the congressional directive to make U.S.-
VISIT fully interoperable with IAFIS is not happening and that 
the long-term vision to implement US-VISIT you are in the 
process of developing will require billions of additional 
dollars to be spent in order to interact with the IAFIS 
database, as Congress directed you to do years ago.
    What is being done in the current increments and in the 
development of a long-term strategy to make sure we don't have 
to do this? In other words, why didn't you guys do what 
Congress directed you to do and that is to use 10 fingerprints 
and have a system that would be compatible with the FBI's 
system instead of going with this two fingerprint system? We 
have had the best experts before this committee, from Stanford 
and other places. The best you can get with two fingerprints is 
53 percent accuracy, and you saw what happened in this metric 
study.
    Why was this done? I brought this up to Asa Hutchinson, 
brought it up to the Secretary, the Senate raised this issue 
repeatedly, and yet you guys just stiffed us and said, ``No, we 
know better. We are going to do it our way. We are going to go 
with a two-finger system,'' even though every expert that we 
have had before the Congress has said that the two-finger 
system is not the way to go. Why was this done? I mean, it 
bothers me that somehow maybe this is contractor oriented. I 
mean, why wouldn't we do the right thing when it was so obvious 
that it was the right thing?
    Mr. Williams. Congressman Dicks, I believe there are 
several questions in your comments that I would like to respond 
to. First of all, the fingerprint system that we check against 
when people come into the country at a customs and border port 
of entry requires that the check needs to be done within a 
matter of seconds. Checking against the FBI system cannot be 
done today. It takes at a minimum--.
    Mr. Dicks. That is not what I am told, sir. I am told you 
can do the 10 fingerprints within a fraction of the second of 
the time you can do two fingerprints. And it is because the 10-
fingerprint system is so much more accurate. That is what we 
are giving up here. We went with a system that doesn't work, 
and all the experts told us it doesn't work. And you guys are--
it is the same old argument, and it is going to cost us now. We 
are going to have to go back and fix this system because it 
doesn't work.
    Mr. Williams. Sir, the system that we use, IDENT, is a 
subset of the FBI's fingerprint system IAFIS, and that used to 
be where we got extracts every 2 weeks. In June of 2004, we 
changed that so that it is daily extract that updates our 
database. Our database is about 1 million fingerprints plus. To 
check against the FBI's 47 million, 48 million fingerprints, 80 
percent of which are U.S. citizens which I am not even sure 
that we need to check takes at least 15 minutes, if not hours. 
The State Department will tell you, as they are pilot testing 
with using the IAFIS system, it is taking in some cases hours, 
hours to get a response.
    Mr. Dicks. Now, why does NIST say that new scanners can do 
fast checks with eight or 10 prints?
    Mr. Williams. Well, it is a question of taking the print is 
one aspect of it. Getting a response back from the system you 
are checking against is the other half of that equation. 
Getting a response back from the FBI's system, which was not 
designed to be a large-scale transactional system, to meet that 
few seconds response time, it just simply cannot be done today.
    Mr. Dicks. But what do you do with the fact that the 
people, the top experts in the world that have looked at your 
system, say it is only accurate 53 percent of the time?
    Mr. Williams. That is simply--it is not accurate when you 
take a poor quality fingerprint, which we take--.
    Mr. Dicks. When you only take two, the chances of poor 
quality fingerprint are very high.
    Mr. Williams. When you take the fingerprint and you get a 
poor quality fingerprint and it looks like a false-positive, 
that person is sent to secondary where the fingerprint is 
retaken and verified. It is verified whether it is a match or 
not. We have a 96 percent accuracy rate. It is not 53 percent. 
It is 53 percent only when there is a poor quality fingerprint. 
And in fact we work closely with--.
    Mr. Dicks. And a lot of the people who are trying to 
disguise their identity have fixed their fingerprint. That is a 
known fact, and that is why the people, the experts who came in 
and testified before our committee from Stanford University 
said there is a much higher chance that your numbers are 
inaccurate and that the number is around 53 percent.
    Mr. Williams. Again, that 53 percent happens in only a 
small percentage of the time, and it is when those people put 
down a poor quality fingerprint. Those people are then sent to 
secondary where they are subject to a further check. We do have 
a 96 percent accuracy rate and looking at--.
    Mr. Dicks. Well, then how do you explain what the metric 
study showed? The 2004 metric study showed that when they were 
using this system they were unable to identify the people who 
were the criminal aliens, and they had to use the FBI system in 
order to find out that they were criminals, that your system 
wouldn't have detected them. How do you explain that?
    Mr. Williams. Well, again, what we get from the FBI, which 
we update daily, is all of their major wants and warrants and 
their sexual predators that are foreign born, unknown country 
of origin. That system that is being used by the Department of 
State today at all of their 207 visa issuing posts, used by 
Customs and Border Protection, that is identifying criminals, 
and in fact we have denied entry to over 450 criminals and 
immigration violators through the use of that system.
    Mr. Dicks. Well, let me just tell you what the study 
showed, the metric study. Three-quarters of the criminal aliens 
encountered at border patrol stations and ports of entry were 
identified only by checking the FBI system and would not have 
been identified by checking IDENT alone. And I am also told 
that in US-VISIT it uses only a small segment of the IAFIS 
system.
    Mr. Williams. That is true. We use that percentage of the 
system in order to get the response time that the Customs and 
Border Protection officers need. If somebody's coming into 
Dulles Airport, they need to be able to get a response time 
very quickly in order to not have the lines go out on to the 
tarmac. And if they had to wait 15 minutes--.
    Mr. Dicks. Explain to me again why you instead of getting a 
system that was interoperable with the FBI system that you 
decided to go and do your own system?
    Mr. Williams. This is the decision made when INS was part 
of the Department of Justice, as FBI is part of the Department 
of Justice. Many years ago when they looked to need a system to 
serve the transactional needs of the border, a decision was 
made within the Department of Justice to develop the IDENT 
system. So the system evolved as something that had a different 
business need, a need to be able to have sub-second response 
time.
    Mr. Dicks. The IG, the Inspector General's report says that 
DHS has not been willing to have the same metric study done 
like the Department of Justice; is that correct?
    Mr. Williams. I am not sure what that is referring to, but 
you referred to the NIST standards. The NIST standards that 
were set, as I read it, recommended the use of two fingerprints 
and digital photographs. It also said that you may need to go 
to more, and that is when you do enrollments. When you are 
comparing it in a one to many--when you start to get too many 
fingerprints in your database, you can get into what they said 
unchartered territory, where you get an unacceptable level of 
false-positives. That is not happening today.
    Mr. Dicks. Let me just make one statement and then I will 
quit, Mr. Chairman.
    The results clearly show that not checking aliens against 
IAFIS increases the risk that the United States will 
unknowingly admit criminal aliens. The Department has proposed 
conducting a similar study on visitors enrolled in US-VISIT but 
as of October 22, 2004, the Department of Homeland Security has 
not yet agreed to do so. I would like you to answer for the 
record why you have not been willing to do so.
    Thank you, Mr. Chairman.
    Mr. Lungren. Ms. Lofgren?
    Ms. Lofgren. Just quickly because Congressman Dicks 
actually covered the issues that I wanted to raise, but it does 
segue into another issue, which is the goal of SCO to integrate 
the various databases and that is really part of this question. 
And given that the databases in some cases are Legacy systems 
that are a mess in flow and in some cases need to be replaced, 
my question goes to the budget.
    Is your budget going to allow for the legacy systems to be 
upgraded so that the kind of query that has just been discussed 
could be done promptly instead of clumsily as might currently 
be the case?
    Mr. Williams. I am not sure we know the answer to that yet. 
The Department, as Deputy Commissioner Spero just recently 
said, was just created about 2 years ago yesterday, and 
programs were built upon legacy systems to meet specific 
business needs. And we have to look at the SCO not only from a 
database standpoint but meeting a business need standpoint.
    I always believe you have to look at integration starting 
with the mission.
    How much we have to then change the underlying 
infrastructure in order to meet the now harmonized business 
need, I don't think we know yet.
    Ms. Lofgren. Well, could I ask this, because some of it is 
your department and some of it isn't, but until we upgrade the 
legacy systems we are not going to be in a position to do the 
kind of search that I think we would all want to do.
    And one other point I would like to make, and I won't use 
the full 5 minutes because we are after our time, I know, but I 
really think the biometrics serves two functions. One is is the 
person standing before you who he or she says she is, I mean, 
an identifier? And then, two, the ability to search what we 
know about various people with that same biometric to see is 
this the person who pops up.
    And there is nothing that prevents us--I mean, this is 
something I have been talking about for the last 3 years--there 
is nothing that prevents us from having more than one biometric 
to do that. And I, for the life of me, don't understand why we 
don't have a biometric with a very small data load in a very 
high reliability component for the ID function. And in addition 
to, not instead of, a biometric that also can serve as a 
template for searching other databases.
    When INS went to this two-finger system, I don't know if 
you recall, I complained about it because it was not compatible 
with the FBI database, which was also a mess anyhow. And so 
what I would like to get from you in writing is the budget 
question: What would it take for your agency to upgrade the 
legacy systems that you are dealing with now so that databases 
could be searchable with the proper privacy protections built 
in in a timeframe that is suitable for business purposes?
    Number two, what biometric indicator could be used as an 
addition, not instead of, that would have a small data load and 
a high reliability? I have been told that might be an iris 
scan, but I am not pushing that technology. Whatever it is that 
would do the ID function as compared to the search function 
that could get things moving rather quickly.
    And, finally, if you don't know the answer I wouldn't 
expect you to, if you could at least estimate the FBI's 
function--I am going to ask the same thing over in the 
Judiciary Committee--on what kind of budget would be required 
for the Department. They just had their whole system crash and 
burn. What kind of budget are we looking at for them to upgrade 
their Legacy systems.
    And then the third question is if you could identify those 
databases that either you maintain or you interface with that 
are currently incompatible so that we have an idea of the scope 
of what we are talking about, that would be very, very helpful 
to me and I am sure the entire committee. Can you do that?
    Mr. Williams. We would be glad to do that.
    Ms. Lofgren. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Lungren. I know we are over time but I would just like 
to ask two questions: one in the area of effectiveness and one 
in the area of efficiency.
    You have given us a lot of data about what you are doing, 
how you are doing it and so forth. Can you very succinctly tell 
me what the specific goals are to be achieved by the 
consolidation of these screening initiatives? How is it that it 
will make us safer, simply put?
    Mr. Williams. I think it will lead to, as the President of 
the 9/11 Commission and I believe the Select Committee pointed 
out, the need for consistency in screening which leads to 
enhanced security. It also leads to increased efficiency that 
leads to getting more mission for the same amount of dollars, 
as well as making information sharing a lot easier where you 
can align the systems and processes.
    Mr. Lungren. In terms of efficiency, I look at the budget 
request, I see the amount of money you have got in there, and I 
know the largest amount is self-generated, that is it is fee-
based. But I fail to see any savings in here. The request 
envisions the need for 32 additional FTEs to manage the office. 
The first question people would ask is ``if it is more 
efficient, why do you need 32 more people and another level of 
bureaucracy?''
    Mr. Williams. I would be glad to answer that question. The 
32 additional people are to help achieve the benefits of 
integration. The programs coming together have their own staffs 
that have to operate their programs. To achieve integration, 
you cannot do it without somebody who looks at this from a 
corporate level and starts to knit together these programs in 
terms of how the business processes, the data, the systems, the 
system interfaces, the data sources, how do those get 
harmonized?
    That doesn't just happen by putting all of these programs 
together. You need some overhead of people who would help 
achieve that integration vision and help manage that 
integration vision. That comes from having an operational 
business vision and an information technology business vision. 
All of those things have to happen.
    The 32 people where there is $6 million set aside in the 
budget I believe that is a small price to pay for the 
integration benefits that come through putting together these 
different programs under the SCO.
    And in terms of the savings, as I mentioned before, what I 
think you really get is cost avoidance. If you don't do the SCO 
and you don't coordinate and integrate, then you have systems 
and programs that are building separate infrastructures 
potentially, buying the same tools instead of sharing the same 
tools. And that way you have duplicative costs that can be 
avoided by achieving the benefits of integration. If you then 
have the same budget, then you get more mission for the same 
amount of money by building upon that common set of services or 
that common infrastructure.
    Mr. Lungren. I appreciate that, but that presumes that 
everybody in the separate systems is absolutely necessary and 
no efficiencies can be wrung out of the systems that exist now. 
We are throwing a lot of money at your department, and we keep 
being asked by people back home whether it is all being spent 
as efficiently as possible, and I would at least have liked to 
have seen some identified potential savings, and I don't see 
that here. But I appreciate what you had to say.
    I want to thank all three of you for appearing. I 
appreciate the time. I appreciate your indulgence as we went 
over to vote and had to come back. And I would like to thank 
the other members of the Committee for being here, but they are 
all gone except one, and I thank Ms. Lofgren for being here.
    For those of you who don't know, on the board we are listed 
as voters as Zoe Lofgren and Daniel E. Lungren to make sure 
that no one mistakes the two of us.
    Ms. Lofgren. Two fine Swedish Americans from the same 
state.
    Mr. Lungren. That is right. That is right. Although as my 
mother and father would say, I am Swedish Irish but I take the 
Swedish side as well.
    Ms. Lofgren. And so am I.
    Mr. Lungren. I thank the witnesses for your valuable 
testimony and the members for their questions.
    The members of the committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
them in writing and the hearing record will be held open for 10 
days.
    This committee stands adjourned.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                               ----------

                   Material Submitted for the Record

 Prepared Statement for the Record from Marc Rotenberg, EPIC Executive 
              Director and Melissa Ngo EPIC Staff Councel

                                                      March 1, 2005
Chairman Dan Lungren
Ranking Member Loretta Sanchez
House Subcommittee on Economic Security,
  Infrastructure Protection, and Cybersecurity
Washington, DC 20515

Dear Chairman Lungren and Congresswoman Sanchez,
    We are writing on behalf of the Electronic Privacy Information 
Center (``EPIC'') to bring to your attention the significant increase 
in surveillance funding in the proposed Transportation Security 
Administration (``TSA'') budget for Fiscal Year 2006. This includes 
increases in funding for programs that would move from TSA to the 
Department of Homeland Security's proposed Office of Screening 
Coordination and Operations (``SCO'') if it were created. We ask that 
this statement be included in the March 2,2005, hearing record of the 
House Subcommittee.
    EPIC strongly opposes this increase in federal funding for TSA's 
surveillance programs and urges the federal government to openly and 
transparently explain how it intends to safeguard American citizens' 
privacy rights under the SCO. In its development and implementation of 
these surveillance programs, TSA has failed to meet its legal 
obligations for openness and transparency under the Freedom of 
Information Act, and the agency has violated the spirit if not the 
letter of the Privacy Act. TSA also has shown a proclivity to using 
personal information for reasons other than the ones for which the 
information was gathered or volunteered. TSA also has shown poor 
management of its financial resources.
    We urge you to ask the witnesses at the March 2 hearing what steps 
the agency will take to protect privacy and ensure transparency in data 
collection and use. The Subcommittee should particularly scrutinize how 
the agency will safeguard citizens' civil liberties and guarantee 
accountability of the actions of the proposed Office of Screening 
Coordination and Operations.
    President Bush's proposed budget would increase TSA spending by 
$156 million to $5.6 billion for fiscal year 2006, but this increase is 
contingent upon $1.5 billion that will be generated by a 120 percent 
jump in security fees assessed to airline passengers.\1\ Assistant 
Secretary David M. Stone defended the increase at the Feb. 15, 2005, 
hearing before the Senate Committee on Commerce, Science and 
Transportation saying air passengers, not the general public, should 
pay for air travel security. However, this money will not go toward new 
security measures, but will replace funds now provided by the 
government for current air traveler security programs.
---------------------------------------------------------------------------
    \1\ Transportation Security Administration Statement of Assistant 
Secretary David M. Stone Before the Committee on Commerce, Science & 
Transportation (Feb. 15, 2005) (hereinafter ``Stone Statement'')
---------------------------------------------------------------------------
    Assistant Secretary Stone also testified that this increased fee 
would mean ``resources from the general taxpayer could be used for more 
broadly applicable homeland security needs,'' but he did not define 
what these needs would be.\2\ Other programs under TSA that are 
receiving an increase in funding in the proposed fiscal year 2006 
budget include surveillance programs that have significant privacy 
implications for tens of millions of American citizens and lawful 
foreign visitors.
---------------------------------------------------------------------------
    \2\ Id
---------------------------------------------------------------------------
    When it enacted the Privacy Act, 5 V.S.C. Sec. 552a, in 1974, 
Congress sought to restrict the amount of personal information that 
federal agencies could collect and required agencies to be transparent 
in their information practices.\3\ The Privacy Act is intended ''to 
promote accountability, responsibility, legislative oversight, and open 
government with respect to the use of computer technology in the 
personal information systems and data banks of the Federal 
Government[.]'' \4\
---------------------------------------------------------------------------
    \3\ S. Rep. No. 93-1183, at 1 (1974).
    \4\ Id.
---------------------------------------------------------------------------
    The Supreme Court as recently as last year underscored the 
importance of the Privacy Act's restrictions upon agency use of 
personal information to protect privacy interests, noting that: .
        ``[I]n order to protect the privacy of individuals identified 
        in information systems maintained by Federal agencies, it is 
        necessary . . . to regulate the collection, maintenance, use, 
        and dissemination of information by such agencies.'' Privacy 
        Act of 1974, Sec. 2(a)(5), 88 Stat. 1896. The Act gives 
        agencies detailed instructions for managing their records and 
        provides for various sorts of civil relief to individuals 
        aggrieved by failures on the Government's part to comply with 
        the requirements.\5\
---------------------------------------------------------------------------
    \5\ Doe v. Chao, 540 U.S. 614 (2004).
---------------------------------------------------------------------------
    It is critical for TSA's programs to adhere to these requirements, 
as they have a profound effect on the privacy rights of a large number 
of American citizens and lawful foreign visitors every year. However, 
TSA has failed to follow the spirit of the Privacy Act during 
development of these surveillance programs.

Office of Screening Coordination and Operations Raises New Privacy 
Problems
    The Department of Homeland Security (``DHS'') has proposed the 
creation and funding of the Office of Screening Coordination and 
Operations, which would oversee vast databases of digital fingerprints 
and photographs, eye scans and personal information from millions of 
Americans and foreigners. This office would be responsible for United 
States-Visitor and Immigrant Status Indicator Technology (US-VISIT), 
Free and Secure Trade, NEXUS/Secure Electronic Network for Travelers 
Rapid Inspection, Transportation Worker Identity Credential (``TWIC''), 
Registered Traveler, Hazardous Materials Trucker Background Checks, and 
Alien Flight School Checks. This mass compilation of personal 
information has inherent dangers to citizens' privacy rights and it is 
imperative that SCO fulfill its legal obligations for openness and 
transparency under the FOIA and Privacy Act.
    According to the president's proposed fiscal year 2006 budget, the 
mission of the proposed SCO is ``to enhance the interdiction of 
terrorists and the instruments of terrorism by streamlining terrorist-
related screening by comprehensive coordination of procedures that 
detect, identify, track, and interdict people, cargo and conveyances, 
and other entities and objects that pose a threat to homeland 
security.'' \6\ The budget goes on to say that ``the SCO would produce 
processes that will be effected in a manner that safeguards legal 
rights, including fteedoms, civil liberties, and information privacy 
guaranteed by Federallaw.'' \7\ It is unclear, however, what steps the 
office intends to take to protect these rights.
---------------------------------------------------------------------------
    \6\ Homeland Security, Budget-in-Brief Fiscal Year 2006, (Feb. 
7,2005) at 19 available at http://www.dhs.gov/dhspublic/interweb/
assetlibrary/Budget--BIB-FY2006. pdf.
    \7\ Id.
---------------------------------------------------------------------------
    There is a significant risk that the creation and funding of the 
SCO would allow for mission creep--a risk that the data collected and 
volunteered by airline passengers, transportation workers and foreign 
visitors will be used for reasons not related to their original 
aviation security purposes. Though TSA has stated that it will not use 
the sensitive personal data of tens of millions of Americans for non-
aviation security purposes, TSA documents about the CAPPS II program 
collected by EPIC under the FOIA clearly showed that TSA had considered 
using personal information gathered for the CAPPS II program for 
reasons beyond its original purposes. For example, TSA stated that 
CAPPS II personal data might be disclosed to federal, state, local, 
international or foreign agencies for their investigations of statute, 
rule, regulation or order violations.\8\ TSA exhibited a proclivity for 
using personal information for reasons other than the ones for which 
the information was gathered or volunteered.
---------------------------------------------------------------------------
    \8\ Department of Homeland Security TSA, Draft Privacy Impact 
Statements (CAPPS II),T1 April 17, 2003, July 29, 2003, and July 
30,2003, obtained by EPIC through FOIA litigation, available at http://
www.epic.org/privacy/airtravel/profiling.html.

TSA Has Failed to Comply With Open Government Laws
    The Freedom of Information Act (``FOIA''). 5 D.S.C. Sec. 552. 
establishes a legal right for individuals to obtain records in the 
possession of government agencies. The FOIA helps ensure that the 
public is fully informed about matters of public concern. Government 
agencies are obligated to meet the requirements of open government and 
transparency under the FOIA, but TSA has failed to meet its FOINs 
obligations during the creation of these surveillance programs.
    TSA is requesting an increase of $49.3 million for its Secure 
Flight program to bring its fiscal year 2006 budget to $94 million. The 
Secure Flight passenger prescreening program could affect the tens of 
millions of citizens who fly every year, but in the creation of the 
program. TSA has failed to meet its obligations under FOIA. and its 
actions concerning openness and transparency have violated the spirit 
of the Privacy Act.
    In September 2004, TSA announced plans to test Secure Flight. 
Secure Flight is intended to replace the now-defunct CAPPS II. but it 
includes many elements of the CAPPS II program, which was abandoned 
largely due to privacy concerns.\9\ TSA said that ``Secure Flight will 
involve the comparison of information for domestic flights to names in 
the Terrorist Screening Database (TSDB) maintained by the Terrorist 
Screening Center (TSC), to include the expanded TSA No-Fly and Selectee 
Lists, in order to identify individuals known or reasonably suspected 
to be engaged in terrorist activity.'' \10\
---------------------------------------------------------------------------
    \9\ See Sara Kehaulani Goo and Robert O'Harrow Jr., New Screening 
System Postponed, Washington Post. July 16,2004, at A02.
    \10\ System of Records Notice, Secure Flight Test Records, 69 Fed. 
Reg. 57345 (Sept.24, 2004).
---------------------------------------------------------------------------
    On Sept. 28. 2004, EPIC submitted a FOIA request to TSA asking for 
information about Secure Flight.\11\ EPIC asked that the request be 
processed expeditiously, noting the intense media interest surrounding 
the program. Specifically. EPIC demonstrated that 485 articles had been 
published about the program since TSA announced its plans for Secure 
Flight. EPIC also mentioned the Oct. 25. 2004, deadline for public 
comments on the test phase of the system, explaining the urgency for 
the public to be as well informed as possible about Secure Flight in 
order to meaningfully respond to the agency's proposal for the program. 
TSA determined these circumstances did not justify the information's 
immediate release, and refused EPIC's request that the information be 
made public prior to the Oct. 25 deadline for these comments. TSA also 
denied EPIC a fee waiver. which the agency has never done before in its 
three-year existence. This maneuver imposed a significant procedural 
barrier to EPIC's ability to obtain the information. EPIC appealed 
TSA's decision noting that TSA's actions were unlawful. Rather than 
defend its position in court, TSA has released a minimal amount of the 
information that EPIC requested. EPIC continues to seek from TSA 
information about the program that will affect tens of millions of 
airline passengers each year.
---------------------------------------------------------------------------
    \11\ Letter from Marcia Hofmann. Staff Counsel, EPIC. to Patricia 
Reip-Dice, Associate Director. FOIA Headquarters Office. TSA. Sept. 
28.2004 (on file with EPIC).
---------------------------------------------------------------------------
    The recently enacted Intelligence Reform and Terrorism Prevention 
Act of 2004 directed TSA to create a system for travelers to correct 
inaccurate information that has caused their names to be added to the 
no-fly list.\12\ TSA maintains that it has an adequate redress process 
to clear individuals improperly flagged by watch lists; however, it is 
well known that individuals encounter great difficulty in resolving 
such problems. Senators Ted Kennedy (D-MA) and Don Young (R-AK) are 
among the individuals who have been improperly flagged by watch 
lists.\13\ Sen. Kennedy was able to resolve the situation only by 
enlisting the help of then-Homeland Security Secretary Tom Ridge; 
unfortunately, most people do not have that option.
---------------------------------------------------------------------------
    \12\ P.L. No. 108-458 (2004).
    \13\ See, e.g., Sara Kehaulani Goo, Committee Chairman Runs Into 
Watch-List Problem, Washington Post, Sept. 30, 3004; Leslie Miller, 
House Transportation Panel Chairman Latest to be Stuck on No-Fly List, 
Associated Press, Sept. 29, 2004; Richard Simon, Iconic Senator Is 
Suspicious to Zealous Airport Screeners, Los Angeles Times, Aug. 20, 
2004; Shaun Waterman, Senator Gets a Taste of No-Fly List Problems, 
United Press International, Aug. 20, 2004.
---------------------------------------------------------------------------
    Also, in June 2004 then-TSA Acting Administrator Admiral David 
Stone admitted to the Senate Governmental Affairs Committee that in 
2002 TSA facilitated the transfer of passenger data from American 
Airlines, Continental Airlines, Delta Airlines, America West Airlines, 
Frontier Airlines, and JetBlue Airways to TSA ``cooperative agreement 
recipients'' for purposes of CAPPS II testing, as well as to the Secret 
Service and IBM for other purposes.\14\ Stone also stated that Galileo 
International and ``possibly'' Apollo, two central airline reservation 
companies, had provided passenger data to recipients working on behalf 
of TSA.\15\ Further, TSA directly obtained passenger data from JetBlue 
and Sabre, another central airline reservation company, for CAPPS II 
development.\16\ TSA did not observe Privacy Act requirements with 
regard to any of these collections of personal information.\17\ Stone's 
admission followed repeated denials to the public, Congress, Government 
Accountability Office (``GAO''), and Department of Homeland Security 
Privacy Office that TSA had acquired or used real passenger data to 
test CAPPS II.\18\ TSA exhibited a proclivity for using personal 
information for reasons other than the ones for which the information 
was gathered or volunteered.
---------------------------------------------------------------------------
    \14\ See U.S. Senate Committee on Governmental Affairs Pre-hearing 
Questionnaire for the Nomination of Admiral David Stone to be Assistant 
Secretary of Homeland Security, Transportation Security Administration 
17, 19, available at http://www.epic.org/privacy/airtravel/stone--
answers. pdf.
    \15\ Id.
    \16\ Id. at 19.
    \17\ Id. at 18.
    \18\ See, e.g., Ryan Singel, More False Information From TSA, Wired 
News, June 23, 2004 (``After the JetBlue transfer was brought to public 
attention in September 2003, TSA spokesman Brian Turmail told Wired 
News that the TSA had never used passenger records for testing CAPPS 
II, nor had it provided records to its contractors. In September 2003, 
Wired News asked TSA spokesman Nico Melendez whether the TSA's four 
contractors had used real passenger records to test and develop their 
systems. Melendez denied it, saying, 'We have only used dummy data to 
this point.' ''); U.S. Representative John Mica (R-FL) Holds Hearing on 
Airline Passenger Profiling Proposal: Hearing Before the Aviation 
Subcomm. of the House Transportation and Infrastructure Comm., 105th 
Congo (March 2004) (Admiral Stone testifying that CAPPS II testing was 
likely to begin in June 2004); GAO Report at 17 (``TSA has only used 32 
simulated passenger records--created by TSA from the itineraries of its 
employees and contractor staff who volunteered to provide the data to 
conduct [CAPPS II] testing''); Department of Homeland Security Privacy 
Office, Report to the Public on Events Surrounding jetBlue Data 
Transfer (Feb. 2004) 8 (``At this time, there is no evidence that CAPPS 
II testing has taken place using passenger data'').
---------------------------------------------------------------------------
    Another example of TSA's failure to operate its programs with the 
openness and transparency necessary under the federal open government 
laws is its recent creation of an Aviation Security Advisory Committee 
Secure Flight Privacy/IT Working Group. It appears to EPIC that, based 
upon the little public information that is currently available, the 
working group is subject to the Federal Advisory Committee Act 
(``FACA''), 5 US.C. App. 1, which includes the requirement that the 
working group publish notices of their meetings in the Federal 
Register. However, the formation of this working group was not 
announced in the Federal Register, and neither TSA nor DHS has publicly 
acknowledged its existence or defined its mission. EPIC recently sent a 
letter to TSA's privacy officer, Lisa Dean, to ask for an explanation 
as to why this working group is not operating with the transparency and 
openness required under FACA.\19\ More than four weeks have passed 
since we sought clarification of TSA's position concerning the status 
of the working group, but to date we have received no response.
---------------------------------------------------------------------------
    \19\ Letter from David Sobel, General Counsel, EPIC, and Marcia 
Hofmann, Staff Counsel and Director, Open Government Project, EPIC, to 
Lisa Dean, Privacy Officer, Office of Transportation Security Policy, 
TSA, Jan. 31,2005 (on file with EPIC).

TSA Has Failed to Comply With Privacy Laws
    The proposed fiscal year 2006 budget accords TSA's Registered 
Traveler program $22 million. This is a pilot program TSA began 
conducting in July 2004 and is now operating at five airports.\20\ The 
preliminary results are now being examined by TSA to determine whether 
the program should be expanded to other airports. Registered Traveler 
allows frequent travelers to submit digital fingerprints, iris scans 
and undergo a background check in exchange for receiving a fast pass 
through the airport checkpoint. (TSA recently announced the 
International Registered Traveler program.)
---------------------------------------------------------------------------
    \20\ Press Release, U.S. Department of Homeland Security TSA, 
Secretary Ridge Unveils Registered Traveler Pilot Program At Reagan 
National Airport (Sept. 3, 2004).
---------------------------------------------------------------------------
    TSA first published a Federal Register notice about the program in 
June 2004.\21\ In July 2004, EPIC submitted comments to address the 
substantial privacy issues raised by the Registered Traveler program 
and the new system of records established to facilitate the 
program.\22\ EPIC requested that TSA substantially revise its Privacy 
Act notice prior to implementation of the final phase of Registered 
Traveler. TSA's subsequent Federal Register notice of the 
implementations of Privacy Act exemptions in the Registered Traveler 
program did not solve any the privacy right threats that EPIC 
highlighted in its comments.
---------------------------------------------------------------------------
    \21\ Privacy Act Notice, 69 Fed. Reg. 30948 (June 1,2004).
    \22\ Comments of the Electronic Privacy Information Center on 
Registered Traveler Operations Files Privacy Act Notice, June 1,2004, 
available at http://www.epic.org/privacy/airtravel/rt--comments. pdf.
---------------------------------------------------------------------------
    TSA's notice for the Registered Traveler system of records, 
exempted the system from many protections the Privacy Act is intended 
to provide--in fact Registered Traveler was exempted from all specific 
exemptions under the Privacy Act.\23\ TSA's notice leaves it under no 
legal obligation to inform the public of the categories of information 
contained in the system or provide the ability to access and correct 
records that are irrelevant, untimely or incomplete. The program 
contains information that is unnecessary and wholly irrelevant to the 
determination of whether an individual poses a threat to aviation 
security. TSA asks for the public's voluntary disclosure of personal 
information, yet operates the Registered Traveler program with very of 
the little transparency and openness obligations that the Privacy Act 
demands.
---------------------------------------------------------------------------
    \23\ Privacy Act Notice, 69 Fed. Reg. 54256 (Sept. 8, 2004).
---------------------------------------------------------------------------
    TSA is requesting $244 million for its pilot program TWIC for 
fiscal year 2006. TWIC is an identification card given to 
transportation workers, authorized visitors and all other persons 
requiring unescorted access to transportation infrastructure secure 
areas. Currently, the program is operating at 34 sites in six states, 
but TSA hopes to eventually extend the program to workers in all modes 
of transportation, which could encompass as many as 6 million 
people,\24\ Persons required to have the identification card submit 
sensitive personal and biometric information to a central TSA database 
used to validate a person's eligibility to access these areas. EPIC 
submitted comments in November 2004 highlighting the dangers to 
participants' privacy rights inherent in the program.\25\ TSA has not 
released information clearly explaining to the public how it intends 
safeguard the sensitive personal information gathered on program 
participants. The lack of transparency and openness about TWIC is 
against the spirit of federal open government laws.
---------------------------------------------------------------------------
    \24\ TSA's fact sheet on the Registered Traveler program, available 
at www.tsa.gov/interweb/assetlibrary/RT--Factsheet.pdf.
    \25\ Comments of the Electronic Privacy Information Center on 
Transportation Security Threat Assessment System and Transportation 
Worker Identification Credentialing System Privacy Act Notice, Sept. 
24, 2004, available at http://www.epic.org/privacy/airtravel/twic--
comments.pdf.

TSA Has Mismanaged Its Programs
    Another important reason not to increase the funding for TWIC is 
because TSA has not used its current funding judiciously. The GAO 
reviewed TWIC in December 2004, and found that because of program 
delays, some port facilities are forced to proceed ``with plans for 
local or regional identification cards that may require additional 
investment in order to make them compatible with the TWIC system. 
Accordingly, delays in the program may affect enhancements to port 
security and complicate stakeholder's efforts in making wise investment 
decisions regarding security infrastructure.'' \26\
---------------------------------------------------------------------------
    \26\ Government Accountability Office, Transportation Security: 
Systematic Planning Needed to Optimize Resources, Statement of Cathleen 
A. Berrick, Director Homeland Security and Justice, GAO-05-357T (Feb. 
15,2005) (``GAO Report'').
---------------------------------------------------------------------------
    The financial problems encountered in TSA's TWIC program are 
emblematic of TSA's troubles managing its finances, according to the 
GAO. Cathleen Berrick, GAO Director of Homeland Security and Justice, 
told the Senate Committee on Commerce, Science & Transportation on Feb. 
15, 2005, that TSA had not always ``conducted the systematic analysis 
needed to inform its decision-making processes and to prioritize its 
security improvements.'' \27\ Examples include the fact that in fiscal 
year 2005, TSA was forced to transfer about $61 million from its 
Research and Development budget of $110 million, to support its 
operations, such as personnel costs for screeners.\28\
---------------------------------------------------------------------------
    \27\ Id. at 2.
    \28\ Id. at 31.
---------------------------------------------------------------------------
    A significant issue is that these surveillance programs are 
receiving substantial funding and TSA manpower while the current 
aviation program to screen passengers and their luggage for threatening 
objects is woefully inadequate. Ms. Berrick reported at the Feb. 15, 
2005, hearing that there has been only modest progress in how well 
screeners detect threat objects following a report last year that 
documented gaps in screener security.\29\ The increased funds that TSA 
has earmarked for surveillance programs can also be used in another 
important program: Threat Assessment of General Aviation. The GAO 
reported that ``though the Federal Bureau of Investigation has said 
that terrorists have considered using general aviation to conduct 
attacks, a systematic assessment of threats has not been conducted.'' 
\30\ TSA has cited cost as the reason that TSA has conducted 
vulnerability assessments at only a small number of the 19,000 general 
aviation airports nationwide.
---------------------------------------------------------------------------
    \29\ Id. at 11.
    \30\ Id. at 17.
---------------------------------------------------------------------------
    TSA has failed to meet its legal obligations for openness and 
transparency under the Freedom of Information Act and has violated the 
spirit of the Privacy Act for the protection of privacy rights in the 
development of the above programs, some of which DHS proposes to move 
into the SCO if it is created. TSA also has shown a proclivity for 
using personal information for reasons other than the ones for which 
the information was gathered or volunteered. TSA also has shown poor 
management of its financial resources. For these reasons, EPIC strongly 
opposes the sharp increase in funding for TSA's surveillance programs 
proposed in the president's fiscal year 2006 budget, and urges DHS to 
openly and transparently explain how it intends to safeguard American 
citizens' privacy rights and ensure accountability in the proposed 
Office of Screening Coordination and Operations.
    Thank you for your consideration of these issues.
    Sincerely,

                                             Marc Rotenberg
                                            EPIC Executive Director

                                                Melissa Ngo
                                                EPIC Staff Counsel 
[GRAPHIC] [TIFF OMITTED] T0904.001

[GRAPHIC] [TIFF OMITTED] T0904.002

[GRAPHIC] [TIFF OMITTED] T0904.003

[GRAPHIC] [TIFF OMITTED] T0904.004

[GRAPHIC] [TIFF OMITTED] T0904.005

[GRAPHIC] [TIFF OMITTED] T0904.006

[GRAPHIC] [TIFF OMITTED] T0904.007

[GRAPHIC] [TIFF OMITTED] T0904.008

[GRAPHIC] [TIFF OMITTED] T0904.009

[GRAPHIC] [TIFF OMITTED] T0904.010

[GRAPHIC] [TIFF OMITTED] T0904.011

[GRAPHIC] [TIFF OMITTED] T0904.012

[GRAPHIC] [TIFF OMITTED] T0904.013

       Questions for the Witnesses from the Honorable Dan Lungren

1. Each program proposed to be transferred into the Screening 
Coordination and Operations Center (SCO) has a slightly different 
customer base and screening requirement. How will the SCO seek to 
harmonize those requirements? No response has been received.

2. The SCO emerged from the actions taken per Homeland Security 
Presidential Directive 11 (HSPD-11). This HSPD mandated a government 
wide review, led by the Secretary of Homeland Security, of existing 
screening efforts; however, this office only proposes to consolidate 
DHS programs. Did the Department consider any programs outside DHS for 
consolidation into SCO? Which programs were considered? Why were 
certain DHS screening programs proposed for transfer, while other 
screening programs were not? What was the guiding rationale for 
consolidation? No response has been received.

3. Does the Department plan to move forward with the SCO prior to 
fiscal year 2006? If so, will other programs be considered for 
consolidation? Will the SCO eventually focus on cargo screening? No 
response has been received.

4. How will the transition of Secure Flight to the SCO add additional 
privacy protections? Can you elaborate on how privacy will be enhanced 
by the creation of the SCO? No response has been received.

5. Please expand on how the united credentialing process under the SCO 
will facilitate and reduce redundancies in the issuance of credentials 
for the included programs, such as FAST, NEXUS, Registered Traveler, 
and HAZMAT licenses? Is it envisioned that there will be one office to 
coordinate the security checks, liaison with the FBI on fingerprints, 
and the establishment of joint enrollment centers? No response has been 
received.

6. The Committee is closely following the deployment of an exit 
screening capability to US-VISIT. Please provide the Committee with an 
update on where this technology stands. Further, what are the potential 
benefits to US-VISIT of being incorporated into the Screening 
Coordination and Operations Center (SCO)? No response has been 
received.

7. In your opinion, is it possible to unite or coordinate the US-VISIT 
Exit component at airports with TSA's plans to use electronic boarding 
passes during security checks to ensure that visa holders are 
``checked-out'' when leaving the U.S.? Will the inclusion of both of 
these programs in the SCO provide an opportunity for discussions to 
move forward on this possibility?

8. What is the status of the strategic plan that US-VISIT has been 
developing, which will describe the ``end vision'' of the program? When 
can Congress expect to see the final version? No response has been 
received.

9. As US-VISIT deploys at ports of entry, installation of additional 
infrastructure--such as new computer workstations, printers, 
fingerprint scanning machines and cameras, modified work stations, and 
ensuring adequate power availability--will be required. How is this 
process coordinated with other large systems being developed, such as 
CBP's Automated Commercial Environment (ACE) program, which will 
require similar infrastructure needs? No response has been received.

10. The fiscal year 2006 budget request contains a $50 million increase 
over fiscal year 2005, of which $24 million is proposed to create a 
''person-centric'' view of border management. Can you expand on what 
this includes, how you envision it being developed (i.e., development 
of a new database or linking legacy systems), and what models exist 
either in the U.S. or internationally that you will be reviewing in the 
development of this ``person-centric'' system? No response has been 
received.

   Questions for the Witnesses from the Honorable Bennie G. Thompson

1. Can you please explain the Department's rationale for requesting 
that certain programs be included as part of the SCO office--such as 
US-VISIT or Secure Flight-while others, such as CPB's National 
Targeting Center or its Automated Commercial Environment (ACE) program 
(which is similar to US-VISIT for goods and cargo), are not included? 
No response has been received.

2. How will those bureaus responsible for the actual operations of the 
various screening programs interact with the SCO? What resources and 
authorities will the SCO need to effectively manage and coordinate 
these screening programs? Second, what is the chain of command? Who is 
responsible for making these screening programs work and work together? 
Will those agencies responsible for these screening programs now report 
to the head of the SCO? Who can Congress look to for accountability on 
these projects given the enormous amount of tax dollars that are being 
appropriated to these programs? No response has been received.

3. One of the goals of the SCO is to integrate the various databases 
associated with the screening systems being moved to the office. The 
biggest problem is that many of the existing systems SCO will attempt 
to ``integrate'' are obsolete. The legacy systems cannot be integrated 
and therefore they need to be replaced by modem, modular, interoperable 
systems. However, the SCO budget request does not include the funds to 
do this. No response has been received.

    In order to accomplish SCO's mission, won't most of the existing 
computer screening systems need to be completely replaced since many 
run in ancient computer languages on obsolete hardware? No response has 
been received.

    When can we expect SCO to achieve appropriate interoperability and 
data-sharing among screening systems? How much more money will be 
needed in the years beyond fiscal year 2006? No response has been 
received.

4. A new report by GAO stated that ``DHS has not employed rigorous, 
disciplined processes typically associated with successful programs, 
such as tracking progress against commitments.'' If DHS is struggling 
to manage just the US-VISIT program, how successful will SCO be at the 
even more complex task of managing US-VISIT and seven other programs? 
No response has been received.

US-VISIT
1. The President's Budget Justification requests $390 million for US-
VISIT. A new report by GAO raises questions about whether DHS' can 
deliver ``promised capabilities and benefits on time and within 
budget'' for US-VISIT. No response has been received.

    Will this level of funding allow you to achieve the goals of 
building an entry and exit system at the remaining land ports of entry 
by the end of this year? No response has been received.

2. The law states that the entry exit system has to match ``an alien's 
available arrival data with the aliens' available departure data.'' Can 
you better define for us what ``available data'' means? And what 
available data is currently available for aliens exiting the U.S. at 
our land borders? No response has been received.

    I understand that this information is required in a report that was 
supposed to be submitted to Congress on December 31, 2004. When will 
that report be provided? No response has been received.

3. GAO has identified shifting milestones and uncertainty about the 
benefits and the cost of what you are building and it appears that from 
one year to the next, the Department's projections and cost estimates 
are not reliable. We want to be sure that money spent on US-VISIT 
results in a more effective and secure entry-exit system. No response 
has been received.

    Are you tracking the cost of each increment of US-VISIT? Can you 
tell us today what measures of performance we can use to see that you 
are building such a system? No response has been received.

4. DHS officials claim that they have a ``short-term'' US-VISIT 
solution. Can you tell us what it is and whether and how it fits into 
the long term solution? Would you be proceeding along the lines of the 
short term solution if you did not have the DMIA deadlines to meet? No 
response has been received.

5. The Data Management Improvement Act mandated a review of the entry-
exit program and required that the program be updated and improved 
based on the recommendations of a Task Force. The Task Force issued two 
reports and was disbanded; however, the law stated that the Task Force 
should be terminated when its work was complete. Many might interpret 
the disbanding of the task force as the desire of DHS to minimize 
scrutiny of the program. No response has been received.

    Can you please explain why the Task Force was disbanded with so 
much left to do? Would it be a good idea for Congress to legislate a 
new Task Force and that this time Congress mandate that this 
independent Task Force be in place for a set number of years to report 
on the program and how it might be improved? No response has been 
received.

6. The Department of Homeland Security is currently rolling out two 
major border screening programs--US-VISIT, which is focused on people, 
and ACE, the Automated Commercial Environment--which is focused on 
vehicles and cargo. Both programs have ambitions of serving as the 
primary border security information sharing system. A new report from 
GAD indicates that little to no work has been done to integrate US-
VISIT and ACE. The materials we received from the Administration 
indicate that US-VISIT will be in the SCO but that ACE will not. Can 
you please explain why ACE, a major border security program, is not 
included in the SCO? No response has been received.

7. Will the Screening Coordination Office examine the possibility of 
utilizing various Border and Transportation Security employees for 
various screening functions depending on their locations at ports of 
entry and overseas? Is it possible that TSA screeners might be the most 
appropriate people to do exit screening? No response has been received.

Secure Flight
1. The 9-11 Commission recommended that TSA improve its use of 
watchlists in pre-screening passengers. I'm glad that we're finally 
going to screen passenger manifests against all terrorist watchlist 
records and not just the no-fly list. but it is my understanding that 
TSA's new Secure Flight plan as currently designed has no protections 
against identity fraud. Will DHS develop such protections to prevent 
identity fraud? No response has been received.

    Also, section 4012 of the Intelligence Reform and Terrorism 
Prevention Act of 2004 (or, the ``9/11 bill'') mandated that by 
February 7, 2005, DHS begin to establish a process to compare passenger 
information on any international flight with the government's terrorist 
watchlist before a plane takes off for the U.S. What progress has DHS 
made to date to ensure that passengers on international flights are 
checked against a watchlist? No response has been received.

Registered Traveler
1. I understand that TSA has begun to test the registered traveler 
program on a volunteer pool of frequent fliers. As I understand it, TSA 
and the airports are looking at the possibility of dedicating screener 
lanes at checkpoints for registered travelers. While I can imagine 
concerns over a program that lets some people skip screening lines, I'm 
more concerned about the security implications. We know that most 
airports are already using fewer screeners than ideal, and this 
proposal would dedicate screeners and detection machines to a small 
percentage of the passengers. This is going to mean that non-Registered 
Travelers will be facing even longer lines, and that the pressure on 
the screeners to move people and bags through will be even greater. Can 
you explain how this system will run without compounding the screening 
problems we already have? No response has been received.

2. I've heard the Registered Traveler program justified on the grounds 
that fewer screener resources will be used on a low-risk population 
that has provided TSA with additional information. There are two 
problems I'd like you to address: No response has been received.

    First, isn't it reasonable to think that a terrorist group would 
want to find someone that can get passed your background check with the 
goal of having less attention paid to them? No response has been 
received.

    Secondly, is the background check planned under the Registered 
Traveler program any different than what is intended to be done under 
the former CAPPS II system? If so, what additional security will be 
gained by having people sign up as Registered Travelers once the new 
Secure Flight (the replacement for CAPPS II) system is running? No 
response has been received.

FAST
1. Ms. Spero, I have talked to many truck drivers who would like to 
participate in the FAST program, but many cite the difficulty of 
getting the driver credential due to the time it takes for the 
background check to be completed. For example FAST applicants on the 
Southern Border must submit their application to Mellon Bank in 
Pittsburgh, PA and then it is sent to the CBP risk assessment center in 
Vermont. No response has been received.

    First why do applications for FAST on the Southern border get sent 
to Pittsburgh rather than a bank or auditor located in California, 
Texas, or Arizona?

2. I have also heard that many truck drivers feel that the processing 
center in some cases forces them to go out of their way when their 
routes take them across remote border crossings. No response has been 
received.

    Has CBP began to look at ways of leveraging existing DHS resources 
to expand the processing centers or explored ways to reach out to the 
trucking community to reach truck companies in remote border locations? 
No response has been received.

NEXUS
1. In the past I understand that NEXUS/SENTRI applications have been 
handled by CBP at the local level. I am informed that soon all NEXUS/
SENTRI applications will be sent to the Citizenship and Immigration 
Services' Vermont Service Center (VSC) for processing. 'This change in 
procedures is expected to result in a higher NEXUS/SENTRI denial rate 
as the VSC is not expected to take the time to interview an applicant 
in the event of some kind of hit in the system during the background 
check process. No response has been received.

    Will NEXUS/SENTRI processing be centralized at VSC? When? No 
response has been received.

    What branch of DHS has primary responsibility for NEXUS/SENTRI? 
Prior to the SCO initiative it appeared that CBP was in charge of 
enrollment, but now given the central enrollment process, it appears 
that CIS may be charged with this responsibility? When these programs 
are part of the SCO what roles will CIS and CBP play? No response has 
been received.

2. My staff was informed that a U.S. citizen residing in Washington 
State was recently denied enrollment in the NEXUS Air program through 
an application made at Vancouver International Airport. The person is 
enrolled in the land border NEXUS program. No response has been 
received.

    Is there a different standard for enrollment in the NEXUS Air 
program versus the NEXUX land border program? No response has been 
received.

    Is there an appeals process to address NEXUS denials? No response 
has been received.

3. It seems that two different NEXUS programs are evolving. The first 
is the land based NEXUS program which uses photos and index finger 
prints as its biometric identifiers. The second is NEXUS Air that uses 
retina scans as its biometric identifiers. A person enrolled in the 
land border NEXUS program cannot use NEXUS Air and vice versa, although 
that person has been pre-screened as being a low-risk border crosser. 
No response has been received.

    What step if any will be undertaken to allow persons enrolled in 
one NEXUS program to use the other program? What is the timeline for 
implementation of these steps? No response has been received.

4. NEXUS technology at a land border crossings at Blaine Washington 
(and perhaps other crossings) seems to work at a less than optimal 
fashion. For example, the remote RF reader :frequently does not work. 
requiring NEXUS enrollees to physically hand their cards to the CBP 
officer staffing the booth at the crossing who in turn scans the card 
on a reader to which he has direct access. In recent weeks a technician 
has been observed making modifications to the remote NEXUS scanning 
equipment in place at the crossing. No response has been received.

    What RF technology and/or equipment problems exist at present at 
the various NEXUS crossings? What is the estimated cost for remedying 
these problems? No response has been received.

    Questions for the Witnesses from the Honorable Edward J. Markey

1. Could the types of privacy breaches that have occurred at 
ChoicePoint also occur at the Office of Screening Coordination and 
Operations? What specific actions will the SCO implement to reduce the 
risk that the personal information maintained by the Office will not be 
accessed by unauthorized individuals? No response has been received.

2. Which of the following types of personal information will the SCO be 
responsible for collecting or maintaining? Social Security numbers; 
home addresses; telephone numbers; fingerprints; photographs; 
employment records; birth dates; travel records? Are there any other 
types of personal information that the SCO will collect or maintain? If 
yes, what are they? No response has been received.

3. How long will the SCO store each of the types of personal 
information that it collects or maintains? With which entities outside 
of the SCO will the Office share the personal information that it 
collects or maintains? No response has been received.

4. What types of analysis will the SCO perform on the data that it 
collects or maintains? No response has been received.

5. If the private information managed by this new Office were to be 
stolen, would the Department be required to notify all of the consumers 
whose information was released? No response has been received.

6. What role, if any, will the Office of Screening Coordination and 
Operations (SCO) have in the screening of cargo? No response has been 
received.

7. If the SCO will have a role in cargo screening, will it be involved 
in screening of cargo carried on all-cargo planes and/or cargo carried 
on passenger planes? No response has been received.

8. How will the SCO interact with the cargo industry? No response has 
been received.

9. What authority will the SCO have to initiate and develop 
regulations? No response has been received.

10. Will SCO be involved in the issuance of private sector grants for 
security initiatives? No response has been received.

11. Will sea be responsible for disseminating threat information to 
industry based on the information the Office is responsible for 
maintaining? No response has been received.

                                 <all>

</pre></body></html>
